About The National Science Foundation...                                                           About the Cover...

                                                                                                   Collage of photos from the NSF multimedia gallery prepared using image manipulation
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   techniques similar to those involved in allegations of data fabrication and falsification.
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets         Photo credits for individual source images:
agency policies and provides oversight of its activities.
                                                                                                   Main image:

NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and      The Blue Moon butterfly, by Sylvain Charlat.
education projects in science and engineering, and is responsible for the establishment of
                                                                                                   Inset photos:
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and     The Coast Guard cutter Healy, by Henry Dick.
supporting the development and use of computers and other scientific methods and
                                                                                                   The world’s first silicon spin-transport devices fabricated and measured in Ian Appelbaum’s lab
technologies; providing Antarctic research, facilities and logistic support; and addressing
                                                                                                   at the University of Delaware (UD). More than 25 individual silicon spin-transport devices are
issues of equal opportunity in science and engineering.
                                                                                                   represented, one within each tiny wire grid, on this ceramic chip holder. By Jon Cox.

And The Office of the Inspector General...                                                         Past and Future Tech (wind turbines), by University Corporation for Atmospheric Research.

                                                                                                   AUV Sentry, by Chris German.
NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within       Jaemi the Humanoid Robot, by Lisa-Joy Zgorski.
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
                                                                                                   Sifaka Lemur in Madagascar, by Walter Jetz.
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.
                                                                          Table of Contents

Audits and Reviews ..........................................................................7


Ensuring Proper Stewardship of ARRA Funds .................................................................7

Contract Administration ....................................................................................................9

Labor Effort Reviews ...................................................................................................... 10

Significant Grant Audits .................................................................................................. 13

Significant Internal Reports ............................................................................................ 14

Audit Resolution ............................................................................................................. 17

A-133 Audits ................................................................................................................... 18

Financial Statement Audit ...............................................................................................20


Investigations .................................................................................23

Administrative Investigations ..........................................................................................23

Civil and Criminal Investigations ..................................................................................... 24

Research Misconduct Investigations ..............................................................................27


OIG Management Activities ...........................................................35

Outreach .........................................................................................................................35


Statistical Data ................................................................................39


Appendix .........................................................................................51

[Blank Page]
                From the Inspector General


This Semiannual Report to Congress highlights the activities of the National
Science Foundation Office of Inspector General for the six months ending
March 31, 2010. During this period, our office issued fifteen reports, four of
which contained more than $115,000 of questioned costs. Our investigative
staff closed 28 civil/criminal investigations and 32 administrative investigations,
had six research misconduct cases result in findings by NSF, and recovered
$1,408,318 for the government.

Our efforts to ensure proper stewardship of NSF’s American Recovery and
Reinvestment Act (ARRA) funds are ongoing. We are currently reviewing a
small sample of ARRA awards to ensure that Recovery Act goals are being met
and that awardees are adequately prepared for the Act’s additional financial and
reporting requirements. We are beginning to focus attention on NSF’s ability to
manage its largest ARRA projects, such the Alaska Region Research Vessel.
During this reporting period, we completed a review of NSF’s efforts and con-
trols to oversee the quality of data ARRA recipients are required to report. It
is critical that this data be accurate, as it provides evidence to support whether
recipients of ARRA funds are meeting the Act’s reinvestment and job creation
goals. We found that NSF is developing a sound process to review the quality
of reported data, and we will continue to provide suggestions for future reporting
cycles.

Other audit work completed this period includes labor effort reporting audits
at five universities, the last in a series of sixteen reviews on this subject. Later
this year we plan to issue a summary report describing the most significant
issues found in this series of audits to assist NSF and universities in improving
oversight and reporting of their labor effort charges. Finally, we issued two alert
memoranda raising concerns about contract monitoring for cost reimbursement
contracts, which was reported as a significant deficiency in NSF’s FY 2009
financial statement audit. Cost reimbursement contracts are high risk because
of the potential for cost escalation and because contractor’s costs for perfor-
mance are paid regardless of whether the work is completed.

Significant investigative results during this period include a university returning
$380,000 in CAREER award funds drawn down on the award after the PI had
left the university. Examples of our criminal investigations included a settlement
agreement that resulted in a university returning $500,000 to NSF after making
false claims and certifications related to a cooperative agreement.

Because research misconduct damages the scientific enterprise, is a misuse of
public funds, and undermines the trust of citizens in government-funded re-
search, we aggressively pursue such allegations against NSF-funded research-
ers. In the past six months, we found that a PI breached the confidentiality
of NSF’s merit review process; a scientist with a Florida company plagiarized
in four Small Business Innovation Program proposals, and another PI plagiarized text from a
funded NSF proposal. I am pleased to report that NSF took strong action on several previously
reported cases and debarred four individuals in response to our recommendations.

Our work reflects my office’s sustained commitment to helping NSF be an effective steward of
taxpayer dollars and benefits from the support of NSF management across the Foundation. We
look forward to our continued constructive partnership with NSF to this end.
                                                                               Repo
                                                                                 porr t Highlights
•		 The OI
        OIG co   continued itits proa
                                 proactive o
                                           ovversight o off N
                                                            NSSF’s mmaanage ge--
    men
    me nt of
          of itits Re
                   Recover y AcAct fu
                                   funds wi
                                          with an
                                                an e em
                                                      mph
                                                        pha asis on
                                                                 on tth
                                                                      he
    accuracy of  of da
                    data A
                         ARRR A rerecipients aarre rreq
                                                     equired tto
                                                               o rre
                                                                   epor t tto
                                                                            oNNS SF.

•		 OIG	G ale
          aler t	t me
                   mem moranda	de     detaileledd	de
                                                  defificciencies	in in	N NSF’ss	mmoon
                                                                                     nitoring g	
    of tw
        two la large cost rre  eimburseme   men  nt ccoontracts. Contract m       moonitor-
    ing fo
         for cco ost rre
                       eimburseme    men nt ccoontracts w   waas aallso rre epor ted a
                                                                                     ass a 

    signifificcant	de
                    defificciency	inin	N
                                       NSF’s	FY  FY	20 2009	fi financiall	ssttatememenntt	

    audit.		I
          . In  n	F
                  FYY	20
                       2009,	N  NSF	ob  oblligated	appro
                                                       approximatelyy	$480	mi       millionn	

    forr	contracts	fo   forr	productss	a  an
                                           nd d	sse
                                                  er vic
                                                     vice es..		O
                                                                Off	tth
                                                                      hiiss	a
                                                                            ammount,,	$361  1	
    million n	w wa
                 ass	obl
                       bliigated	fo for	c
                                        costt	rreeimburseme    men ntt	contracts,,	o off	w
                                                                                         whhic
                                                                                             ich
                                                                                               h	

    $270	mi  million	alallowed	 d ffo
                                    or	ad
                                        advance	pa   payme men nts	foforr	tth
                                                                            hrree
                                                                               ee	contrac-
    tors,	w withh	thee	m ma ajority	ggoi
                                       oin
                                         ngg	tto
                                               o	on
                                                  onee	c contractor..		


•		 Audits	ofof	la
                labor	ef ef for t	re
                                   repor tingg	aatt	five	ununiversities,,	tth   he  e	lla
                                                                                        astt	iin
                                                                                               n	
    a se
    a	 series	
             s of
               of	si
                   sixtee
                        een n	rerepor ts,	iidentififieedd	w
                                                          we eaknesses	su      such    h	aass	
    noncompl  pliiance	w  with	fe federal	l ef
                                            ef for tt	rre
                                                        epor tingg	rreq
                                                                     equ  uirememen    nts,,	
    inadequate	ef   ef for t	re
                             repor ting g	training,,	a   annd	in
                                                               insuf fificcient	ju  justifificcation
                                                                                                   n	
    of la
        labor co
              cost trtransfers bet   betwee
                                          een n aw
                                                 award   rdss. NSF an   annually pro     provi vid
                                                                                                 des
    more  e	than	$1
                  $1.2 2	bbiillion,	appro
                                     approximatel     elyy	o
                                                           onne
                                                              e-thirdrd	o  off	a
                                                                               allll	NSF	ffundss	

    to	un
        universities,	fo for	ssalaries	an and	wawages.
	

••	
 		   	A	M
      A  Maassssaacchhuusseettttss	u
                                  unniviveerrssitityy	d
                                                     drreeww	d
                                                             doowwnn	nneeaarrlyly	$$220000,0
                                                                                           ,00000	oonn	aa	
      CAREER a      awward a     affter tth
                                          he P   PII hha
                                                       ad lelefft tth
                                                                    he u
                                                                       un
                                                                        niversity. The u         unniver-
      sity	te
           terminated	tthe	      e awaward	an    and	re returned	$    $380,000	     0 to
                                                                                       to	NSF.

•		 Our ininvestigation o   off ffrraud a
                                        annd mmiismanageme  men  nt ooff N
                                                                         NSSF ffu
                                                                                unds
    under a co  cooperative ag    agree
                                      eeme
                                         men nt at
                                                at a Ge
                                                      Georgrgiia un
                                                                 university deter-
    dein
    m  teerdmih
             t na
                etdatha
                      PIt uased
                             PI usS N eF
                                       dNfuSnF
                                             dsfuimproperly
                                                  nds imprope  anrdlycahnadrge
                                                                             chdarged
    costs	s that	we
                  were	no not	
                             t re
                               related	to to	the	NNSF	proje
                                                        projecctt..		A
                                                                     A	se
                                                                        settleme
                                                                               menntt	

    agree
        eememen  nt	re
                    resulted	in  in	$500,000	in  in	re
                                                    restitution	anandd	a	fifive-yearr	

    compliance ag    agre
                       ree ement.

•		 In	re
       response	 e toto	OIG	
                           G rreecomme  menndations,	NNSF  F	d
                                                             de
                                                              ebarredd	ffo
                                                                         ourr	
    individuals,	, iin
                     ncluding	a	  a fo
                                     forme
                                        merr	pro
                                             proffesso
                                                    sorr	w
                                                         who
                                                           ho	ha
                                                              had	vi
                                                                  violated d	h
                                                                             hiiss	
    university’s	conflicflictt	o
                               off	in
                                   interests	an
                                              and	ou
                                                   outside	ccompensation	
    policies ffo
               or mma any yye ears.




                                                                                                             5
6

                                                   Audits & Reviews

During this period, our office issued fifteen reports, four of which
contained more than $115,000 of questioned costs. Our efforts
to help NSF ensure proper stewardship of its American Recovery
and Reinvestment (ARRA) funds are ongoing. At the request of
the Recovery and Accountability Board, we conducted an audit to
determine whether NSF had a process to perform the limited data
quality reviews required of recipients’ ARRA reports. We have also
begun conducting reviews at selected universities, nonprofits, and
contractors that received ARRA funds to determine whether they
have the ability to segregate ARRA funding and provide accurate
and timely quarterly reporting.

Our audits and alert memos resulted in significant recommenda-
tions to improve NSF’s contract management; to strengthen
controls over labor effort reporting; and to help ensure that federal
funds are spent properly. In other work, NSF concurred with
our recommendation to develop a performance management
process appropriate for its senior executives assigned under the
Intergovernmental Personnel Act. We found that the National
Science Board was generally in compliance with the Government in
the Sunshine Act and made several recommendations to increase
the Board’s transparency and openness. As a result of our report
on NSF’s audit resolution process, the OIG and NSF are working
together to identify ways to improve audit resolution and follow-up in
order to effectively address recommendations in audits of awardee
institutions.

Additionally, we reviewed 167 single audits of NSF awardees and
requested that NSF coordinate with us during the audit resolution
process in certain instances involving significant weaknesses.
Finally, NSF’s FY 2009 financial statements audit, conducted by
an independent CPA firm on our behalf, reported a significant
deficiency in contract monitoring for reimbursement contracts. We
agreed with NSF’s proposed corrective actions for nine of the ten
audit recommendations and are awaiting additional information on
the remaining recommendation.
                                                                          HIGHLIGHTS
Efforts to Ensure Proper Stewardship of ARRA                              Efforts to Ensure
                                                                            Stewardship of ARRA
Funds are Ongoing                                                           Funds are Ongoing             7
                                                                          Contract Administration         9
The American Recovery and Reinvestment Act of 2009 provided               Labor Effort Reviews           10
additional funding of $3 billion to NSF, an approximate 50 percent        Significant Grant Audits       13
increase over the agency’s $6 billion FY 2009 annual appropriation.       Significant Internal Reports   14
As noted in our September 2009 semiannual report, NSF quickly             Audit Resolution               17
                                                                          A-133 Audits                   18
                                                                          Financial Statement Audit      20

                                                                         7

Audits & Reviews


                   established a methodology for awarding these stimulus funds and produced
                   policies and procedures that include new award terms and conditions specific to
                   ARRA awards.

                   During this reporting period, the attention of both the government and recipients
                   of ARRA awards has shifted to the recipient reporting requirements. Under
                   ARRA, recipients are required to report quarterly on their spending and activi-
                   ties, and on the number of jobs supported by ARRA funds. In addition, under
                   ARRA, NSF is required to establish a data quality plan that articulates its data
                   quality review process that, at a minimum, meets OMB guidance requirements.
                   An effective data quality review process is a major control for helping NSF
                   ensure the accuracy of information its recipients’ report.

                   At the request of the Recovery Accountability and Transparency Board and in
                   conjunction with other members of the Recovery Board working group (whose
                   members consist of the IGs of agencies that received ARRA funding), we
                   conducted an audit to determine whether NSF had a process to perform the
                   limited data quality reviews required of recipients’ ARRA reports. We found that
                   NSF is putting in place an adequate process that meets OMB requirements to
                   identify material omissions and/or significant reporting errors. We made several
                   suggestions for NSF to consider as it refines its process for future reporting
                   cycles. Our suggestions included that NSF define “chronic reporting problems”
                   and that NSF develop plans to incorporate ARRA recipient reporting in its
                   continuing risk assessments. Subsequently, NSF noted that it has developed a
                   multi-stage quality control plan for its federal review of recipient reporting and
                   has successfully conducted data quality reviews for the first reporting period.
                   As more reporting periods pass, we will be able to go back and see how well
                   this process is working.

                   We are currently participating with other members of the Recovery Board work-
                   ing group on two additional reviews of recipient reporting for ARRA. The first
                   is a follow-up on the just described audit of NSF’s quality control process over
                   recipient-reported ARRA information. This audit will look at NSF’s data quality
                   processes now that two full reporting cycles, including the review and correction
                   of reported data, have been completed. The second is a review of the informa-
                   tion that is being collected and reported by the recipients themselves and
                   includes site visits to some NSF awardees to evaluate their reporting processes.
                   By participating in these reviews, we are able to provide suggestions and
                   recommendations for continuous improvement to the newly-developing recipient
                   reporting processes at all levels.

                   During this reporting period we also began conducting reviews at large,
                   medium, and small universities and nonprofits which received ARRA funds
                   to determine whether they have the ability to segregate ARRA funding and
                   provide accurate and timely quarterly reporting. As we conduct these reviews,
                   we will inform NSF of any areas of concern we identify that require guidance
                   or clarification from the agency. We believe that this approach will be valuable
                   in assisting institutions in developing systems to control and report their ARRA
                   funding.




              8

                                                             OIG Semiannual Report    March 2010


Finally, we are beginning to focus on NSF’s efforts to manage its largest ARRA
projects. Under ARRA, NSF was appropriated $400 million for Major Research
Equipment and Facilities Construction awards, which NSF has allocated to three
facility projects: the Alaska Region Research Vessel, the Ocean Observatories
Initiative, and the Advanced Technology Solar Telescope. We have initiated
focused reviews of these projects and plan to develop monitoring strategies
for each of them. Currently, we are completing an initial survey of the Alaska
Region Research Vessel, the first of the major projects to be awarded. Because
of the large dollar amounts of these complex awards, we believe that the strat-
egy of an initial in-depth review followed by continuous monitoring, will allow for
a proactive and value-added approach that will provide NSF management with
insights that will help contribute to the success of these jobs.

Challenges in Contract Administration Continue

The Foundation continues to face challenges in contract administration. As
described later in this report, contract monitoring for cost reimbursement
contracts was reported as a significant deficiency in NSF’s FY 2009 financial
statement audit. Cost reimbursement contracts are high-risk because of the
potential for cost escalation and because the contractor’s costs for performance
are paid regardless of whether the work is completed. In FY 2009, NSF
obligated approximately $480 million for contracts for products and services.
Of this amount, $361 million was obligated for cost reimbursement contracts,
of which $270 million allowed for advance payments for three contractors, with
the majority going to one contractor. Given the amount of money it expends to
procure goods and services, it is imperative for NSF to have the capability and
capacity to perform contract administration tasks adequately on its large cost
reimbursement contracts.

During this semiannual period, we issued two alert memos to NSF identifying
deficiencies in its monitoring of two large cost reimbursement contracts.

Significant Deficiencies Identified in NSF’s Administration of
Raytheon Contract

We issued an alert memorandum regarding a significant deficiency in NSF’s ad-
ministration of its contract with Raytheon Polar Services Company (Raytheon),
which provides services to NSF’s Antarctic Program. Specifically, NSF has not
had an approved CAS Disclosure Statement for this contract from 2005 to the
present. An approved CAS Disclosure Statement is essential because it is the
basis for Raytheon classifying and billing costs to the contract. Currently, NSF
does not have a clear understanding and agreement with Raytheon as to how
Raytheon should classify and charge direct and indirect costs to its contract.
As a result, NSF risks paying unallowable costs on this contract. We recom-
mended that NSF request DCAA to audit Raytheon’s Disclosure Statement
and that NSF strengthen its contract administration to ensure that contractors’
Disclosures Statements are audited in a timely manner.

NSF agreed with our recommendations and has contracted with DCAA to
perform an audit of Raytheon’s CAS Disclosure Statement and an audit of
Raytheon’s proposed costs for a one-year extension of that contract. Since the


                                                                                      9

Audits & Reviews


                   issuance of the alert memo, DCAA found Raytheon’s proposal for the extension
                   period was inadequate, citing many areas where the documentation provided
                   did not support the proposed costs. NSF has indicated that it will continue to
                   work with DCAA to ensure that Raytheon provides an adequate cost proposal
                   and Disclosure Statement and will also continue to improve its contract adminis-
                   tration.

                   Significant Deficiencies Identified in NSF’s Administration of
                   Contract and Awards with Non-Profit Organization

                   We issued an alert memo regarding significant deficiencies in NSF’s administra-
                   tion of $1.5 billion in contracts and other awards since 2003 with the Consortium
                   for Ocean Leadership (COL), an entity that resulted from the merger of the Joint
                   Oceanographic Institutions and the Consortium for Oceanographic Research
                   and Education. The Federal Acquisition Regulation (FAR) requires that contrac-
                   tors subject to Cost Accounting Standards submit CAS Disclosure Statements
                   and cost impact proposals before receiving a contract, entering into a merger,
                   or changing accounting practices. Further, the federal agency should determine
                   that the contractor’s accounting system is adequate at least every four years.
                   NSF and COL did not fully comply with these requirements.

                   As a result, NSF does not have a clear understanding or agreement with COL
                   about the cost accounting practices that are being used to charge costs to
                   NSF’s contracts and other awards. Therefore, NSF might be paying for unal-
                   lowable costs. Specifically, we suggested that NSF request an audit of COL’s
                   Disclosure Statements since 2007. We encourage NSF to continue to address
                   the issues we identified and and to continue its efforts to improve the overall
                   quality of its contract administration.

                   Labor Effort Audits at Five Universities Disclose Internal Control
                   Weaknesses

                   In 2005 the OIG began conducting a series of audits to evaluate whether
                   universities’ internal controls are adequate to properly manage, account for,
                   and monitor salary and wage costs; and to determine whether these costs are
                   allowable in accordance with federal costs principles. During this reporting
                   period, we completed the final five audits in this series, to bring the total number
                   of university systems reviewed to sixteen. Later this year we plan to issue a
                   summary report describing the more significant problems found in this series
                   of audits to assist NSF and universities in improving oversight and reporting of
                   their labor effort charges.

                   It is critical for university labor effort systems to be sound since NSF annually
                   provides more than $1.2 billion for salaries and wages to universities, approxi-
                   mately one-third of the annual NSF grant expenditures at these universities.
                   This figure will increase over the next few years with the addition of ARRA
                   funds.

                   These audits have continued to identify key weaknesses including the lack of a
                   suitable means to validate the labor charged to NSF grants and understanding
                   of the effort certification process. In addition, the audits identified noncompli-


             10

                                                               OIG Semiannual Report   March 2010


ance with federal and university effort reporting requirements, ineffective
oversight, inadequate effort reporting training and insufficient justification of
labor cost transfers between awards.

The systemic internal control weaknesses identified raise concerns about the
reliability of the effort reports universities use to support labor costs charged to
NSF grants. As a result of these deficiencies, NSF may have paid for unallow-
able costs or for work that did not benefit its grants. Specific information about
the five audits completed in this reporting period follows.

Systemic Internal Control Weaknesses Over Effort Reporting Found
at University of Delaware

Although the University of Delaware had established a federal grants manage-
ment program, our audit disclosed systemic weaknesses in the effort reporting
program. Specifically, our review of 30 sampled employees with total FY 2008
NSF salary charges of $696,648, found that the university’s system did not
ensure salaries and wages charged to NSF awards reasonably reflected actual
work performed on the sponsored projects. The significant nature of these
deficiencies raises concerns about the reasonableness and reliability of the
remaining $6.6 million in FY 2008 labor charges to NSF grants and the $33.3
million salary portion of Delaware’s other $115 million of Federal award expendi-
tures. For example:

•		 Six employees lacked an understanding of their responsibilities for labor
    effort reporting. As a result, they could not accurately validate the charges
    made to NSF grants.
•		 Twenty one of 74 effort reports, representing $192,795 in labor charges were
    certified up to 600 days after the university’s mandated turnaround time. The
    longer it takes to certify reports, the less reliable the effort reports may be.
•		 The system was not programmed to capture or upload certain transactions.
    As a result, $14,435 of our sampled efforts were not approved.
•		 Seven employees incorrectly charged administrative time or excess salary
    payments to NSF grants. As a result, the audit questioned $21,522 in salary
    for charges that did not directly benefit the NSF grants.
•		 Delaware’s internal audit of its effort reporting systems identified similar
    control weaknesses including late certifications and lack of a policy defining
    what constitutes suitable means of verification.

These weaknesses occurred primarily due to inadequate oversight in both daily
operations and periodic independent reviews of the system. We recommended
that NSF work with the University’s cognizant agency to ensure that Delaware
addresses the weaknesses found in the audit; specifically that it develops
policies to comply fully with federal regulations, requires labor effort training,
and improves its oversight of the effort reporting process. In response to both its
internal audit and to our review, Delaware has taken actions to improve its effort
reporting system.




                                                                                       11

Audits & Reviews


                   State University of New York - Stony Brook Not Using Suitable
                   Means of Validating Labor Charged to NSF Grants

                   An audit of the State University of New York - Stony Brook’s labor effort
                   reporting system found that employees did not have first-hand knowledge as
                   required by federal regulations when they certified effort reports on NSF grants.
                   Specifically, employees who were not in a position to know whether work was
                   performed, certified 14 of 30 employees’ effort reports which represented
                   $235,737 or 33 percent of NSF salaries reviewed. In addition, Stony Brook’s
                   effort reporting system was not fully integrated to include all academic, adminis-
                   trative, and research effort for both sponsored and all other work activities. Six
                   of 30 sampled employees did not include all activities on their effort reports.

                   The systemic nature of these control weaknesses calls into question the ac-
                   curacy of the $8.1 million for labor costs that Stony Brook charged to its NSF
                   awards in FY 2008 and the salary portion of $125.4 million in other federal
                   awards may be similarly insufficiently supported.

                   We made several recommendations including that Stony Brook improve policies
                   and procedures, require labor effort reporting training, and fully integrate effort
                   reporting systems Stony Brook agreed with the first two recommendations but
                   asserted that its systems met federal requirements.

                   University of Nevada - Reno Is Not Complying Fully with Effort
                   Reporting Requirements

                   An audit at the University of Nevada - Reno determined that, while the university
                   had improved its effort reporting system, it was not in compliance with all
                   federal, NSF, and university effort reporting requirements. For example, contrary
                   to federal requirements, the university’s electronic reporting system did not
                   appropriately provide faculty effort reports that consistently reflected all com-
                   pensated work activities. The instances of noncompliance raise concerns about
                   the reliability of the $2.2 million of FY 2008 labor charges to NSF grants as well
                   as the reliability of the labor costs claimed on the university’s other $78 million of
                   federal awards.

                   Recommendations to address these deficiencies included that Reno improve its
                   policies to ensure compliance with federal and NSF requirements, and that the
                   university require effort reporting training. The university generally concurred
                   with the recommendations and has taken steps to address them.

                   University of Wisconsin - Madison Needs to Strengthen Controls
                   over Charging Labor to NSF Grants

                   The audit found that Wisconsin generally had a sound grants management
                   program. Prior to our audit of its FY 2007 labor effort, Wisconsin implemented a
                   new effort reporting system. The new system improved compliance with federal
                   and NSF requirements; however, our review identified remaining weaknesses,
                   the most significant of which were inadequate oversight of the effort reporting
                   process and inadequate training of personnel involved in the labor effort report-
                   ing process. Wisconsin has not performed a comprehensive review of its past

             12

                                                              OIG Semiannual Report   March 2010


or current system. In FY 2007, Wisconsin received approximately $719 million
in Federally-sponsored projects, of which $125 million was funded by NSF; $31
million of the NSF funding was for labor.

We made several recommendations including that Wisconsin develop clear
written policies for periodic oversight of its effort reporting process and require
effort reporting training. The university generally agreed with our recommenda-
tions.

Washington University in St. Louis Needs to Enhance Oversight of
its Effort Reporting System

An audit of Washington University’s (WUSTL) labor effort reporting system
found that overall the university had adequate systems to ensure that the time
charged to an NSF award represented the actual time spent on that award. The
audit did not disclose any significant deficiencies.

However, the audit did identify several areas of concern WUSTL should address
to enhance implementation and oversight of its effort reporting. For example,
during the period audited, the university did not require effort report training at
all of its campuses, and the effort reporting system was not fully integrated to
include all academic, administrative, and research effort. Thus, effort reports
might misstate the actual effort charged to the various activities. The imple-
mentation of a new electronic reporting system is expected to resolve this issue.

We recommended the University address these concerns to ensure reliability of
the $6.3 million in labor costs to NSF awards charged in FY 2008, as well as the
labor costs claimed on $432 million of other federal awards. During the course
of the audit, the university addressed the concerns identified.


Significant Grant Audits
Our grant audits completed this period found that two NSF awardees, a univer-
sity and a non-profit, had material internal control deficiencies in subrecipient
monitoring in addition to other deficiencies. Awardees that pass federal funds
through to subrecipients must monitor subrecipients to ensure that their financial
systems are adequate to manage the federal money they receive. NSF risks
paying subrecipient costs without the assurance that the costs are permissible if
such monitoring is insufficient.

University Needs to Strengthen its Controls over Subrecipient
Monitoring

An audit of five awards amounting to $14.9 million in costs and $1 million in
cost sharing claimed by the University of Missouri at Columbia found significant
internal control deficiencies in the areas of subaward and payroll costs. Specifi-
cally, subaward costs charged to three of the NSF awards representing $9.1
million or 61 percent of the total costs claimed on all five awards audited, were
not adequately monitored. The University’s subaward monitoring policies were


                                                                                      13

Audits & Reviews


                   not followed and were not sufficiently comprehensive. As a result, the Univer-
                   sity’s internal controls over subaward costs do not provide assurance that the
                   expenditures claimed by the subawardees are accurate, valid, and allowable.

                   In addition, some labor cost transfers were not consistently approved and
                   supported with proper documentation. Also, effort reports were not recertified
                   after changes were made, which increases the risk that irregularities that affect
                   NSF and other federal grant funds may not be detected.

                   The audit recommended that Missouri strengthen its policies to ensure ad-
                   equate supervisory review of subaward risk assessments and that the university
                   require adequate justification for all labor cost transfers.

                   The University agreed with the recommendations pertaining to labor cost trans-
                   fers and agreed that the subaward risk assessment process should be reviewed
                   by supervisory personnel, but asserted that its monitoring of subawards was
                   adequate. NSF is working to resolve the findings and recommendations con-
                   tained in the audit report.

                   Limited Subrecipient Monitoring Noted at Non-Profit Organization

                   An audit of $74.8 million in costs claimed by Network for Earthquake Engineer-
                   ing Simulation (NEES) Consortium found that NEES had addressed many
                   financial management issues identified in prior audits; however, it performed
                   limited sub-award monitoring on its nineteen subawards amounting to $64
                   million (86 percent) of the total costs claimed on the award.

                   The audit found that the Consortium needed to improve its subaward monitoring
                   process and document its process for approving fringe benefit and indirect
                   cost allocations; cash drawdowns; timekeeping for labor costs allocations; and
                   participant support costs.

                   NSF has recompeted the award; therefore, the auditors did not make recom-
                   mendations to the Consortium, but made several suggestions to NSF to en-
                   hance the pre-award and overall award portfolio management processes. The
                   suggestions included ensuring that new awardees have a risk-based subaward
                   monitoring process prior to award and properly documenting financial policies
                   and procedures.



                   Significant Internal Reports

                   NSF Takes Steps to Address Challenges of Rotating Executive
                   Workforce

                   To maintain a world-class scientific workforce, NSF supplements its permanent,
                   career workforce with a variety of non-permanent staff. All of the non-
                   permanent appointments are federal employees, except for Intergovernmental



             14

                                                                                   OIG Semiannual Report           March 2010


Personnel Act (IPA) assignments, who remain employees of their home institu-
tion. At the time of our audit, “rotating directors”, in the form of IPA assignees,
filled over a quarter of NSF’s executive-level, science positions.1

The Senate Committee Report accompanying NSF’s 2010 appropriations bill
expressed “deep concern” with systemic workforce management issues at
NSF. While noting the benefits of NSF’s rotational director model in bringing
the agency fresh scientific insight and perspective, the report also cited its
potential for creating gaps in management oversight. We conducted an audit to
determine if NSF has a rotator model in place that ensures effective personnel-
management performance and oversight at its executive level

Based on our limited assessment, we found that NSF generally has the
components of an effective personnel management system and followed Office
of Personnel Management and government-wide requirements. Nothing came
to our attention to indicate that NSF’s personnel management system was
ineffective. With the exception of performance management, NSF applied the
components of effective personnel management to both its permanent and
temporary staff and IPAs in the same manner.

However, differences exist in NSF’s management of various appointments at
the executive level. Specifically, NSF does not include IPAs in its formal perfor-
mance management system even though they function in the same capacities
as NSF’s federal executives. Additionally, we noted that IPAs may not have prior
working knowledge of the federal government culture or of federal government
management processes because they are rotating into NSF from universities
and other institutions.

As a result, NSF’s rotating director model presents challenges to effective
personnel-management performance and oversight. Because IPAs do not have
a written record of performance, NSF risks not holding them accountable, as it
does its federal employees, in accomplishing NSF’s mission and goals. Also,
the fact that IPAs do not always have prior knowledge of, or experience with, the
federal workplace culture or federal government management processes gives
them a steep learning curve when they arrive at NSF.

NSF has acknowledged the challenges that arise from its use of rotating execu-
tives and has taken some steps to mitigate these challenges. For example,
NSF’s attempts to “pair” rotators with an experienced career executive to
facilitate their acclimation to the federal government environment. However,
NSF could do more to address the challenges associated with the rotating direc-
tor model. We recommended that the NSF Director develop a performance
management process appropriate for IPAs and that NSF continue current plans
and efforts to integrate IPA executives into the agency. NSF concurred with our
recommendations.




1 For our purposes, we included assistant/office directors, executive officers/deputies, division directors, and
division deputies/executive officers in our definition of executive- level science staff. We did not include the
NSF Director, Deputy Director, or staff at the AD-5 level.


                                                                                                                   15

Audits & Reviews


                   National Science Board Generally in Compliance with Sunshine Act

                   The purpose of the Government in the Sunshine Act is to open the govern-
                   ment’s deliberation processes to the public. The Act applies to the National
                   Science Board and requires that the Board’s meetings be open to the public,
                   with the exception of meetings that qualify for ten narrow exemptions. Our audit
                   of the National Science Board’s compliance with the Sunshine Act found that
                   the Board was in full compliance with the Act, from January 1, 2007, to August
                   6, 2009, when it made decisions to close selected sessions of upcoming Board
                   meetings. We did not find any instance where the Board had specifically
                   decided to close a meeting that should have been held open to the public. In
                   addition, for most open meetings, the Board complied with the Sunshine Act’s
                   procedural requirements, including proper public announcement of meetings
                   within the statutory time frames.

                   However, our audit raises some concerns. Most notably, the Board could not
                   produce complete transcripts or recordings, as required, for 9 of the 28 closed
                   meetings we reviewed. We also found several instances where the Board made
                   impromptu adjustments to meetings by adding items to the discussions without
                   following all of the Act’s requirements for such changes.

                   We recommended that the Executive Officer of the National Science Board
                   ensure that closed meetings are properly recorded and transcribed, evaluate
                   ways to improve the current process for setting agenda items, update the Board
                   Office’s Sunshine Act policies and procedures, and ensure that all Board mem-
                   bers and pertinent staff receive periodic training on Sunshine Act requirements.
                   The Board Office generally agreed with our recommendations.

                   Improvements Needed in NSF’s Audit Resolution Process

                   Audits conducted by the OIG of institutions receiving NSF funds are one mecha-
                   nism available to NSF to effectively oversee its awarded funds. The process
                   of resolving audit recommendations and following up to ensure that institutions
                   implement corrective action is an important tool to address current issues and
                   to prevent future issues at NSF-funded institutions. Therefore, a robust audit
                   resolution and follow-up process is critical to ensure that institutions receiving
                   funds from NSF take the necessary corrective actions to properly manage
                   that funding. We found that NSF’s policies and procedures for resolving audit
                   recommendations were not adequate to effectively address recommendations in
                   OIG audits of awardee institutions. As a result, deficiencies in how institutions
                   manage their NSF awards, which were identified in audits, may continue or
                   worsen, increasing the risk that NSF funds may not be used as intended.

                   Specifically, NSF’s audit resolution policies and practices do not recognize the
                   shared responsibility between the agency and the OIG for resolution of external
                   audits, as required by OMB. Therefore, NSF may negotiate what we would
                   deem to be incomplete or ineffective corrective action plans in our assessment
                   of 19 of 34 sampled audits. In addition, NSF does not consistently follow-up to
                   ensure that awardee institutions implement corrective actions.




             16

                                                              OIG Semiannual Report    March 2010


We recommended that the NSF Director, in conjunction with the Inspector
General issue an overarching policy directive that recognizes audit resolution
as an agency priority and a shared responsibility between NSF management
and the OIG. We also recommended revisions to the agency’s audit resolution
and follow-up policies, procedures, and practices. The agency generally agreed
with our recommendations, and NSF and the OIG are working together on ways
to improve audit resolution and follow-up.



Audit Resolution
California Institute of Technology Implements OIG
Recommendations to Improve Labor Effort Reporting

At the request of California Institute of Technology (Caltech) officials, we
conducted a follow-up review of Caltech’s implementation of recommendations
we made in our March 2007 audit of its labor effort reporting process. We found
that Caltech had corrected all the internal control weaknesses we identified.
Caltech took a number of actions including updating its policies and procedures
to better document the review and approval of labor costs, and requiring officials
involved in the labor effort process to receive periodic training.

Georgia Institute of Technology Strengthens Controls Over Labor
Effort Reporting

The Georgia Institute of Technology (Georgia Tech) has taken steps to address
the internal control weaknesses for justifying and approving after-the-fact trans-
fers of labor costs between federal awards that we identified in our June 2009
audit. Georgia Tech took a number of actions to strengthen monitoring and the
oversight of labor effort reporting process, such as requiring written justifica-
tion and approval for labor cost transfers between awards and for changes to
monthly workload allocation reports.

Cornell University Strengthens Controls Over Certification of Labor
Effort

Cornell has implemented several corrective actions in response to our June
2009 audit, which found that employees at Cornell did not comply with
federal regulations when they certified effort reports without having first-hand
knowledge or a suitable means of verifying that the work was performed and
that the work benefitted NSF awards. Cornell has revised its policies to include
definitions of what constitutes a suitable means of verification and is requiring
that officials involved in effort reporting process receive periodic training.

Purdue University Enhances Labor Effort Training

Purdue has taken several actions to enhance labor effort training for both
business office staff and principal investigators (PIs) and took additional steps to
correct effort reporting issues related to proposal writing and graduate student
teaching efforts. Also, NSF has sustained $12,630 in questioned costs in


                                                                                       17

Audits & Reviews


                   incorrect charges for proposal writing and teaching effort to NSF grants which
                   we identified in our 2009 audit. Finally, Purdue created a new position in Spon-
                   sored Program Services to provide additional oversight of the effort reporting
                   process.

                   Arizona State University Strengthens Effort Reporting Procedures

                   Arizona State officials significantly strengthened their effort reporting system by
                   implementing more stringent certification procedures, requiring follow-up to en-
                   sure timely certification of reports, and establishing an independent process to
                   periodically review its reporting system to ensure compliance with federal, NSF,
                   and university requirements. NSF sustained the $29,700 in costs questioned by
                   the audit, as well as an additional $2,284 in unallowable costs identified during
                   audit resolution.


                   A-133 Audits
                   Single Audits Identify Material Weaknesses and/or Significant
                   Deficiencies at 49 NSF Awardees

                      OMB Circular A-133 provides audit requirements for state and local gov-
                     ernments, colleges and universities, and non-profit organizations receiving
                     federal awards. Under this Circular, covered entities that expend $500,000
                     or more a year in federal awards must obtain an annual organization-wide
                     audit that includes the entity’s financial statements and compliance with
                     federal award requirements. Non-federal auditors, such as public account-
                     ing firms and state auditors, conduct these single audits. The OIG reviews
                     the resulting audit reports for findings and questioned costs related to NSF
                     awards, and to ensure that the reports comply with the requirements of
                     OMB Circular A-133.

                   For the 167 audit reports reviewed and referred to NSF’s Cost Analysis and
                   Audit Resolution (CAAR) Branch this period, 2 covering NSF expenditures of $3
                   billion during audit years 2006 through 2009, the auditors identified 152 findings
                   at 76 NSF awardees. Four awardees received qualified opinions on their finan-
                   cial statements and 12 had adverse, qualified, or disclaimers of opinions on their
                   compliance with federal grant requirements.

                   The auditors identified material weaknesses and/or significant deficiencies in
                   50 reports (66 percent of reports with findings), indicating substantial concerns
                   about the awardees’ ability to manage NSF funds. Awardees’ lack of internal
                   controls and noncompliance with federal requirements included: untimely and/
                   or incorrect reporting of time and effort; inadequate support for salary/wages,
                   equipment, travel, and indirect costs charged to awards; inadequate monitoring
                   of subrecipients; inability to prepare the financial statements; and late financial
                   and/or progress reports.


                   2 We reviewed 4 additional reports but rejected them due to audit quality issues. Once we receive the
                   revised reports, we will review them, and if acceptable, refer them to NSF for resolution.


             18
                                                                                  OIG Semiannual Report         March 2010


We also examined 73 management letters accompanying the A-133 audit
reports and found 46 deficiencies that affected NSF. Auditors issue these
letters to identify internal control deficiencies that are not significant enough to
include in the audit report, but which could become more serious over time if
not addressed. The deficiencies included inadequate tracking, managing, and
accounting for NSF costs, and ineffective segregation of duties. These deficien-
cies affected control processes that are essential to ensuring stewardship of
NSF funds and preventing fraud and abuse.

We provided the results of each audit report to NSF and, where appropriate,
highlighted our concerns related to opinions or findings. In certain instances,
such as reports which contained significant deficiencies or material weaknesses
repeated for three or more consecutive years and/or reports which identified
$100,000 or more in questioned costs to NSF awards, we requested that
NSF coordinate with us during the audit resolution process. NSF coordinated
with us as requested prior to completing resolution of five reports. NSF also
resolved two reports without coordinating with us as requested. Both of these
reports contained significant deficiencies which had been repeated for at least
four consecutive years, and had been designated “OIG special interest.” We
previously reported on our efforts to reach agreement with NSF officials on the
process for resolving recommendations for A-133 reports for which we have
requested coordination.3 As noted in our prior discussion of the audit resolution
process, staff from NSF and OIG are currently working together to improve the
audit resolution and follow-up process.

Audit Timeliness and Quality Deficiencies Found in 55 Percent of
Single Audits

The audit findings in A-133 reports are useful to NSF in planning site visits and
other post-award monitoring. Because of the importance of A-133 reports to this
oversight process, the OIG reviews all reports for which NSF is the cognizant
or oversight agency for audit, and provides guidance to awardees and auditors
for the improvement of audit quality in future reports. In addition, OIG returns
reports that are deemed inadequate to the awardees to work with the audit firms
to take corrective action.

We reviewed 102 audit reports for which NSF was the cognizant or oversight
agency for audit,4 and found that 46 fully met federal reporting requirements.

Fifty six reports reviewed had timeliness and quality issues. Eighteen reports
were submitted after the submission deadline. Audit quality issues identified
included 21 reports in which the Schedule of Expenditures of Federal Awards
did not provide sufficient information to allow for identification of awards
received from non-federal “pass-through” entities or did not adequately describe
the significant accounting policies used to prepare the schedule. In addition,
there were 20 reviews that contained quality issues which had been previously
identified for the same awardees and auditors.


3 September 2009 Semiannual Report, pp. 16-17.
	
4 The “cognizant or oversight agency for audit” is defined as the federal agency which provided the largest 

amount of direct funding to an awardee.


                                                                                                                19

Audits & Reviews


                   We contacted the auditors and awardees, as appropriate, for explanations of
                   each of the potential errors. In most cases, the auditors and awardees either
                   provided adequate explanations and/or additional information to demonstrate
                   compliance with federal reporting requirements, or the error did not materially
                   affect the results of the audit. However, we rejected four reports due to substan-
                   tial non-compliance with federal reporting requirements. We issued a letter to
                   each auditor and awardee informing them of the results of our review and the
                   specific issues on which to work during future audits to improve the quality and
                   reliability of the report.

                   Efforts in Response to National Single Audit Sampling Project,
                   Recovery Act, and Improper Payments Improvement Act

                   We previously reported ongoing efforts to improve the quality and oversight of
                   single audits in response to the recommendations of the National Single Audit
                   Sampling Project and on our participation in OMB workgroups.5

                   We continue to work with OMB to revise the Council of Inspectors General on
                   Integrity and Efficiency standards for conducting quality control reviews and
                   desk reviews. We are also working with OMB to address the impact of ARRA
                   and the Improper Payments Improvement Act on single audits.



                   Financial Statement Audit Reports
                   Establishing and maintaining sound financial management is a top priority for
                   the federal government because agencies need accurate and timely information
                   to make decisions about budget, policy, and operations. The Chief Financial
                   Officer’s Act requires agencies to prepare annual financial statements, which
                   must be audited by an independent entity.

                   NSF Receives Unqualified Opinion on Financial Statements For the
                   Twelfth Consecutive Year, But Monitoring of Cost Reimbursement
                   Contracts Needs to be Strengthened

                   Under a contract with the OIG, Clifton Gunderson LLP conducted an audit of
                   NSF’s FY 2009 financial statements. Clifton Gunderson issued an unqualified
                   opinion on the financial statements; however, the auditors reported a significant
                   deficiency in contract monitoring on cost reimbursement contracts. As noted
                   earlier, NSF obligated $361 million for cost reimbursement contracts in FY 2009,
                   of which $270 million in contracts allowed advance payments for three contrac-
                   tors, with the majority going to one contractor. Cost reimbursement contracts
                   are high-risk because of the potential for cost escalation. Advanced payment
                   contracts are considered to be a higher risk because contractors are paid before
                   the work has begun. Without improvements in these areas, NSF cannot ensure
                   the reasonableness and accuracy of costs paid on these contracts.




                   5 Previously reported in September 2007 Semiannual Report, p. 17, and September 2009 Semiannual
                   Report, p. 18.


             20

                                                              OIG Semiannual Report   March 2010


Specifically, the auditors noted issues in the following three areas:

•		 Delays in securing Incurred Cost Audits for NSF’s largest and riskiest con-
    tracts, and not properly monitoring the receipt, audit, and approval of Cost
    Accounting Standards (CAS) disclosure statements.
•		 Inadequate and ineffective contract oversight procedures, including the
    evaluation of contractor’s accounting systems prior to awarding cost reim-
    bursement type contracts.
•		 NSF’s Contracting Manual requires additional procedures for cost reim-
    bursement contract administration.

It is essential for NSF to improve in these areas in order to ensure the reason-
ableness and accuracy of costs paid on contracts, particularly on contracts
considered to be high-risk.

The auditors made 10 recommendations for NSF to incorporate more compre-
hensive risk-based policies and procedures for contract monitoring and focus
cost surveillance on cost reimbursement contracts. We agreed with NSF’s
proposed corrective actions for nine of the recommendations and are awaiting
additional information on the remaining recommendation to determine whether it
can be resolved.

The auditors also issued a Management Letter in conjunction with the financial
statement audit report. The purpose of this document is to communicate
findings that are not included in the audit report but are important to ensuring a
sound overall internal control structure and require management’s attention.
The FY 2009 Management Letter identified seven findings, some of which
incorporated elements of prior years’ findings related to NSF’s operations
and financial reporting controls. The Management Letter reported continuing
improvements needed to NSF’s policies for awarding and administering grants.
The auditors repeated their prior recommendation that NSF revise its Site
Visit Review Guide for assessing institutions with high risk awards to provide
specific guidance for reviewers to document their review steps and the results.
The auditors made several other recommendations including that NSF review
supporting source documentation before approving payments to problem institu-
tions placed on special payments, and that NSF monitor audit resolution activity
to ensure that the deadlines are met.

NSF agreed with twelve of the fourteen recommendations in the Management
Letter. For example, NSF plans to implement a revised process to incorporate
a limited review of actual costs for grantees on special payment plans and to
update its contracting manual and other guidance. The FY 2010 financial state-
ment audit will evaluate NSF’s actions in response to the recommendations.

Annual Evaluation of NSF’s Information Security Program
Completed

The Federal Information Security Management Act (FISMA) requires an annual
independent evaluation of an agency’s information security program. Under
a contract with the OIG, Clifton Gunderson LLP conducted this independent
evaluation for FY 2009. Clifton Gunderson reported that NSF has an
established information security program and has been proactive in reviewing

                                                                                      21

Audits & Reviews


                   security controls and in identifying areas to strengthen its controls; however,
                   some improvements are needed. NSF concurred with the report and has made
                   progress in addressing the findings. The agency provided a corrective action
                   plan, which will be reviewed as part of the FY 2010 independent evaluation.




             22
                                                       Investigations
Administrative Investigations
Administrative investigations involve allegations of wrongdoing that
do not constitute violations of NSF’s research misconduct regulation
or federal civil or criminal statutes. During the past six months, we
conducted several administrative investigations. Two investigations
resulted in institutions returning significant amounts of grant funds
to NSF. Other administrative cases involved possible weaknesses
in agency hiring practices and potential employee misconduct.

University Returns $770,000 in Award Money to NSF

A Michigan university returned $770,000 to NSF after investigating
allegations of research misconduct involving plagiarism in an NSF
proposal and in course materials created under the resulting NSF
award. The university found that a co-PI’s actions pertaining to the
course materials did not constitute research misconduct, and the
university was unable to determine whether the PI or the co-Pi was
responsible for the plagiarized material in the NSF proposal. The
university required the PI to attend an ethics seminar and to submit
proposals for university supervision for five years; since the co-PI
had moved to another institution, the university did not take action
against her. We agreed with the university’s conclusions and sent
letters to the PI and co-PI emphasizing the importance of appropri-
ate citation.

During the course of the investigation, the university determined
that it was unable to complete the NSF project. Therefore, it termi-
nated the award, making $150,000 of unexpended funds available
to NSF, and it returned $620,000 of previously expended grant
funds to NSF.

$380,000 in CAREER Award Funds Returned to NSF

We received an allegation that the PI on a $400,000 CAREER
award to a Massachusetts university left her position to pursue a
career in the arts, but the institution drew down nearly $200,000
on the NSF award after her departure. NSF sent more than 21
overdue project report reminders, and neither the institution nor the
PI responded.
                                                                         HIGHLIGHTS
The institution acknowledged that it had drawn down funds on the         Administrative
NSF award after the PI left, explaining that it used the funds to         Investigations       23
support graduate student projects. The institution also acknowl-         Civil and Criminal
edged that it had not notified NSF of these changes, as required.         Investigations       24
The primary purpose of NSF CAREER awards is to support the               Research Misconduct
development of a PI’s career, not to support graduate student work.       Investigations       27

                                                                        23

Investigations


                 The university terminated the award, making $200,000 of unexpended funds
                 available to NSF, and it returned $180,000 of previously expended grant funds
                 to NSF.

                 NSF Implements Recommendations to Properly Detail Employee
                 and to Improve Maintenance of Performance Reviews

                 Based on an allegation we received, we reviewed a Senior Executive Service
                 (SES) vacancy posting and concluded that it adhered to relevant statutes,
                 regulations, and policies, and that no conflict of interests existed with respect
                 to the temporary incumbent’s involvement in the posting at issue. However,
                 in conducting our review, we found that the incumbent had been placed in the
                 SES position for two years without formally being detailed to the position, as
                 required by federal regulation. We also discovered that NSF employees’ signed
                 performance evaluations are not always provided to the Division of Human
                 Resource Management (HRM), as required. NSF implemented our recom-
                 mendations to properly detail the individual and to ensure that performance
                 evaluations are provided to HRM and maintained as required.

                 NSF Addresses Three Employee Misconduct Matters

                 An employee was counseled on the importance of properly accounting for his
                 official time after we found that, for three months, he had been including exer-
                 cise time as part of his eight-hour day. Another employee received an official
                 reprimand from NSF and repaid $700 to the agency after she failed to account
                 properly for hours worked.6 In the third matter, NSF management orally repri-
                 manded an employee who used franked envelopes for personal use.


                 Civil and Criminal Investigations
                 We investigate violations of federal civil and criminal statutes by applicants for
                 and recipients of NSF funds, as well as NSF employees and contractors. When
                 we find substantial evidence of wrongdoing, we refer cases to the Department
                 of Justice for prosecution and recommend administrative action by NSF in
                 appropriate circumstances.

                 During this reporting period, our investigations yielded significant results
                 including a university returning $500,000 to NSF after a PI used grant funds
                 improperly and a university returning $105,000 to NSF after charging unallow-
                 able costs to NSF grants.

                 Contractor Improperly Charged $14.2 Million in Indirect Costs to
                 NSF

                 The OIG’s Office of Audit and the Defense Contract Audit Agency determined
                 that a contractor in Colorado overcharged NSF $14.2 million over five years
                 because it improperly reclassified allocations of indirect costs from its corporate
                 parent headquarters as direct costs in the contract. Upon referral from the
                 Office of Audit, we initiated an investigation.

                 6 Previously discussed in September 2009 Semiannual Report, p.27.
           24

                                                             OIG Semiannual Report   March 2010


During the bidding process, the contractor proposed a ceiling on its indirect
rate to gain an advantage over its competitors. Shortly after commencing
performance of the contract, changes at the contractor’s corporate parent
headquarters increased the general corporate indirect costs that were allocated
to the contractor. The contractor could not obtain reimbursement from NSF for
these increased charges due to the ceiling on the indirect-cost rate that it had
agreed to during the bidding process. Instead of renegotiating the indirect rate
ceiling with NSF when faced with mounting losses, the contractor added certain
corporate parent indirect costs to other indirect costs that had been legitimately
proposed for direct charge to the contract in its original proposal.

The contractor advised NSF of its plan of action, using language that blurred
the distinction between the corporate parent’s indirect costs and the other
costs that had originally been proposed for direct charge. The contractor
then implemented the plan based on an ambiguous oral statement by an NSF
staff member that the contractor interpreted as constituting approval—even
though the statement also indicated that an audit would be requested. The
audit concluded that the contractor’s selective reclassification of the allocated
corporate parent indirect costs violated cost accounting standards.

We referred evidence of potential false claims to the U.S. Attorney’s Office for
the Eastern District of Virginia for action under the civil False Claims Act. The
U.S. Attorney’s Office declined to move forward with the civil suit and returned
the matter to our office to allow NSF to seek an administrative recovery of the
overcharges. We referred this matter to NSF with our recommendation that the
agency administratively recover the questioned reclassified corporate alloca-
tions. NSF is evaluating its course of action.

University Agrees to Return $500,000 and Enters into a Compliance
Plan After Submitting False Claims and Certifications to NSF

We investigated allegations of fraud, abuse, and mismanagement of NSF funds
under a cooperative agreement at a Georgia university. We determined that
the PI used NSF funds for entertainment expenditures, such as taking students
bowling and on trips to amusement parks, and charged expenses related to his
other projects to the NSF cooperative agreement. We also determined that the
university failed to meet its cost sharing obligations and submitted false annual
cost sharing certifications to NSF.

We referred the matter to the U.S. Attorney’s Office for the Middle District of
Georgia for action under the civil False Claims Act. A settlement agreement
between the United States and the university required restitution in the amount
of $500,000 and a five-year compliance agreement, which we will monitor for its
duration.

South Pole Hacker Sentenced

We previously reported that an individual in Romania hacked into NSF’s South
Pole Station computer network and attempted to extort money from NSF by
threatening to sell the information he obtained from the network to “interested
parties.”7 A joint investigation with the FBI, Romanian authorities, and the OIG

7 September 2003 Semiannual Report, p. 32.
                                                                                     25

Investigations


                 resulted in the hacker’s arrest and confession in 2003, and in this reporting
                 period he was found guilty and sentenced by a Romanian court to two years in
                 jail. The sentence was suspended for four years; however, he will have to serve
                 the two-year sentence if he commits another crime in the next four years.

                 University Returns $105,000 to NSF and Administrator is
                 Recommended for Debarment

                 We identified $38,000 of unallowable costs charged to awards to two PIs at
                 an Ohio university. The mischarges included the cost of personal travel for
                 a PI’s family. To assist us in determining whether the issues we identified
                 were systemic or anomalous, the university agreed to conduct audits of two
                 additional awards and identified an additional $27,000 of unallowable and
                 unsupported charges made to those awards. The university returned to NSF
                 a total of $105,000 in unallowable and unsupported charges and associated
                 indirect costs, and overhauled its administrative policies and practices to ensure
                 compliance with federal requirements.

                 Unrelated to the mischarges to NSF awards, the university determined that a
                 department administrator (who was also responsible for overseeing one of the
                 NSF PI’s awards) had embezzled $22,000. She pled guilty to aggravated theft
                 in state court, and we recommended that NSF debar her for three years. NSF
                 has issued a Notice of Proposed Debarment to the former department adminis-
                 trator, and its final decision is pending.

                 Debarments Recommended for Wrongdoing by Three Awardee
                 Employees

                 •		 The president of a Texas university used $287,000 of university funds (not
                     NSF or other federal funds) for home improvements, landscaping, and other
                     personal purchases. She pled no contest and was ordered to pay $127,000
                     in restitution and serve ten years of community supervision (a form of
                     probation). Because the former president is currently affiliated with another
                     university that receives significant NSF and other federal funds, in a faculty
                     position in accounting, and because the former president’s crimes reflected
                     financial dishonesty and a lack of present responsibility, we recommended
                     that NSF debar her for three years. NSF’s decision is pending.

                 •		 An accounts payable clerk at a Wisconsin college pled guilty to a felony
                     theft charge in a state court and was ordered to pay $22,000 of restitution
                     ($1,700 from non-NSF federal awards). We recommended that NSF debar
                     the former clerk for three years, and NSF’s decision is pending.

                 •		 An administrator at a North Carolina university used a procurement card
                     four times to charge personal expenses totaling $525 personal expenses
                     to an NSF award. The university terminated the employee and restored
                     the improper charges to the grant. We recommended that NSF debar the
                     former employee for one year, and NSF issued a notice of proposed debar-
                     ment. NSF’s final decision is pending.




           26

                                                                          OIG Semiannual Report   March 2010


NSF Acts on Debarment Recommendations

In recent Semiannual Reports we reported several investigations that resulted
in recommendations to NSF that it consider debarring the subjects based on
the outcomes of our investigations. During this reporting period, based on our
recommendations, NSF debarred each of the following individuals for three
years:

•		 The former director of a university medical research center who improperly
    charged $282,000 to an NSF award and $678,000 to other federal awards.8

•		 A former professor who violated or disregarded various federal award
    administration requirements, violated university policies regarding conflicts
    of interests and outside compensation, and repeatedly misled both NSF and
    university investigations into the matter.9

•		 A former research employee based on her conviction for theft of funds from
    federal programs.10

•		 A former university employee who was convicted of embezzlement for her
    use of her purchase card for personal charges totaling $24,000, half of
    which was charged to an NSF award.11



Research Misconduct Investigations
Research misconduct damages the scientific enterprise, is a misuse of public
funds, and undermines the trust of citizens in government-funded research. For
these reasons, pursuing allegations of research misconduct by NSF-funded
researchers continues to be a focus of our investigative work. In recent years,
we have seen a significant rise in the number of substantive allegations of
research misconduct associated with NSF proposals and awards. It is impera-
tive to the integrity of research funded with taxpayer dollars that NSF-funded
researchers carry out their projects with the highest ethical standards.




8 September 2009 Semiannual Report, p. 30.
9 March 2009 Semiannual Report, p. 34.
10 March 2009 Semiannual Report, p. 30; September 2009 Semiannual Report, p. 30.
11 September 2009 Semiannual Report, p. 30.


                                                                                                  27

Investigations


                       NSF’s Definition of Research Misconduct12:

                  Research misconduct means fabrication, falsification, or plagiarism in pro-
                  posing or performing research funded by NSF, reviewing research proposals
                  submitted to NSF, or in reporting research results funded by NSF.

                  1. Fabrication means making up data or results and recording or reporting
                  them.

                  2. Falsification means manipulating research materials, equipment, or pro-
                  cesses, or changing or omitting data or results such that the research is not
                  accurately represented in the research record.

                  3. Plagiarism means the appropriation of another person’s ideas, processes,
                  results or words without giving appropriate credit.

                  4. Research, for purposes of paragraph (a) of this section, includes proposals
                  submitted to NSF in all fields of science, engineering, mathematics, and
                  education and results from such proposals.

                  Research misconduct does not include honest error or differences of opinion.



                 During this reporting period, we referred seven cases to NSF which are sum-
                 marized below. In the first two cases, NSF made a finding and took actions
                 consistent with our recommendations. NSF’s decisions are pending in the other
                 five cases.

                 PI Plagiarized in NSF-Supported Paper

                 A Florida university’s investigation found that a PI’s NSF-supported paper
                 contained plagiarism. The PI argued to the university that his actions did not
                 meet the definition of plagiarism because his community standards were such
                 that only models, analyses, and results—but not text—were considered intel-
                 lectual property. The university disagreed; however, it did not make a finding of
                 research misconduct primarily because it concluded that the PI intended to cite
                 the original sources but failed to do so because he was in a hurry to submit the
                 paper, and it found no pattern of plagiarism.

                 We found the university’s conclusions regarding the PI’s intent to be unper-
                 suasive, so we conducted additional investigation. We examined the paper
                 and found twice as much plagiarism as the university identified. Further, we
                 examined several of the PI’s other proposals and found additional plagiarism,
                 constituting a pattern of plagiarism.

                 Based our recommendations, NSF: sent the PI a letter of reprimand notifying
                 him that NSF made a finding of research misconduct; required the PI to take
                 a course on proper citation practices; and required the PI to certify for eleven
                 months that all his submissions to NSF are free from plagiarism.
                 12 45 C.F.R. § 689.1.


           28

                                                             OIG Semiannual Report   March 2010


   Assessment of Pattern in Research Misconduct Cases

 The NSF research misconduct (RM) regulation states that, in deciding ap-
 propriate final actions in an RM case, NSF officials “should consider whether
 the actions were an isolated event or part of a pattern.”13 If our investigation
 of an RM allegation confirms that falsification, fabrication, or plagiarism
 occurred, we examine a representative sample of other research work by
 the subject, including proposals submitted to other funding agencies, internal
 proposals, lab notebooks and other research publications and reports, to
 look for other instances of falsification, fabrication, and/or plagiarism, which
 would establish a pattern.

 Evidence of a pattern of RM is relevant for two purposes. First, it can negate
 any suggestion by the subject that the RM act was inadvertent, which is
 necessary to establish the level of intent to make an RM finding. Second, it
 can inform the adjudicator about the seriousness of the subject’s misconduct.



PI Plagiarizes Text in Four SBIR Proposals

We concluded that four Small Business Innovation Research (SBIR) proposals
submitted to NSF by a scientist working at a small Florida company contained
plagiarized text. We did not believe that such a small company could conduct
an impartial investigation, so we conducted our own investigation.

During our investigation, the PI stated that she had used some material in her
proposals that was prepared by a marketing specialist and some material that
was from commercial sources. She stated that she did not believe she needed
to quote such material.

We determined that the PI plagiarized, and that factors such as her education,
publications, and work experience demonstrated that she was aware of the
appropriate scholarly standards. Therefore, we concluded that she acted
knowingly when she copied material into her NSF proposals.

Based on our recommendations, NSF sent the PI a letter of reprimand inform-
ing her that NSF has made a finding of research misconduct against her;
required her to certify for one year that proposals or reports she submits to NSF
do not contain plagiarized, fabricated, or falsified material; and directed the PI
to certify to our office that she completed a course in research ethics within one
year of the final disposition of the case.

Pattern of Plagiarism in Researcher’s Proposals

We referred an allegation to a Virginia university that a PI submitted a proposal
to NSF that contained plagiarized text. The PI denied plagiarizing, asserting he
did not understand NSF’s citation policy. However, the university substantiated
the allegation and found additional plagiarism in that proposal as well as in
several of the PI’s other proposals, which constituted a pattern of plagiarism.

13 45 C.F.R. § 689.3(b)(3).


                                                                                     29

Investigations


                 In contrast, the committee determined that the PI appropriately cited his
                 sources in manuscripts he submitted to scientific journals, thus demonstrating
                 he was aware of appropriate citation practices. Nonetheless, the PI—who is a
                 faculty member, a researcher, a director of an NSF-funded center, and a former
                 editor-in-chief of a scientific publication— contended that he was not familiar
                 with NSF’s standards and expectations for proposals. The university did not
                 find his claim of ignorance to be plausible.

                 We concurred with the university’s conclusions and its finding of research
                 misconduct. We recommended that NSF: send the PI a letter of reprimand
                 notifying him NSF is making a finding of research misconduct; require the PI
                 to take a course on responsible research practices with emphasis on proper
                 citation and attribution practices of proposals; for the next three years, require
                 the PI to provide with every submission to NSF a certification that the submitted
                 work is either entirely his own writing or is properly cited; and, for three years,
                 require the PI to provide an assurance by the university’s research integrity
                 officer that, to the best of his or her knowledge, the PI’s work is entirely his own
                 writing or is properly cited. NSF’s decision is pending.

                 PI Breached the Confidentiality of NSF’s Merit Review Process and
                 Plagiarized Text

                 We determined that a PI who was a senior professor at a Texas university
                 submitted three NSF proposals, two of which were funded, containing text
                 copied from multiple source documents. One source document was an NSF
                 proposal the PI received for merit review.

                 The university determined that the PI violated NSF proposal review rules, failed
                 to put copied text into quotations, and failed to provide citations for additional
                 materials copied from websites. However, the committee stated that the com-
                 munity standards for referencing websites are rapidly changing and therefore
                 the PI’s lack of citations to websites were not inconsistent with community
                 standards. The Committee concluded that, although the PI should face some
                 disciplinary action, the violations did not warrant a finding of research miscon-
                 duct.

                 We disagreed with the university’s conclusion that the requirement for referenc-
                 ing websites is different than references to other written material. Attribution
                 to the work of authors is required regardless of the source. Distinguishing and
                 attributing copied material serves two essential objectives: giving credit to the
                 source authors, and also informing the reader that the author is not taking credit
                 for the distinguished material.

                 We determined that the PI had breached the confidentiality of merit review and
                 plagiarized text into three NSF proposals. We recommended that NSF: make a
                 finding of research misconduct against the PI; send the PI a letter of reprimand;
                 require the PI’s employer to submit assurances for three years; prohibit the PI
                 from serving as a reviewer of NSF proposals for five years; and require the PI to
                 provide certification for completion of a course in ethics training. NSF’s decision
                 is pending.



           30

                                                             OIG Semiannual Report     March 2010


PI Blames Students for Plagiarism

We determined that a PI at an Alabama university plagiarized a substantial
amount of text from someone else’s proposal into his own. During our inquiry,
the PI told us he received a copy of an awarded proposal from NSF and gave it
to more than eighty of his students to perform a literature review—and he did
not assess their work before incorporating it into the proposal he submitted to
NSF. The PI also told us there was no unattributed copied text in any of his
other proposals, but we found copied text in two other proposals. We referred
the matter to his university for investigation. The university concluded the PI
was solely responsible for the plagiarism in his proposal; however, the PI left the
university before the investigation was completed.

We concurred with the university’s conclusions. We recommended that NSF:
send the PI a letter of reprimand notifying him NSF is making a finding of research
misconduct; require the PI and his students to take a course on responsible
research practices with emphasis on proper citation and attribution practices; for
the next two years, require the PI to provide a certification with every submission
to NSF that the submitted work is either entirely his own writing or is properly
cited; for the next two years, require the PI to ensure his employer submits assur-
ances that the PI’s submitted work is either entirely his own writing or is properly
cited. NSF’s decision is pending.

PI Plagiarizes from Online Sources

We determined that a PI from a Texas university submitted a proposal to NSF
containing text plagiarized primarily from online sources. The PI admitted that
he copied the material, but explained he was rushing to meet a deadline. We
referred the matter to the university for investigation. The university concluded
that the PI recklessly committed plagiarism and required the PI to: not submit
external grant proposals for one year; recuse himself from acting as a merit
reviewer for federal grants for two years; not be eligible for a merit pay increase
for one year; and complete an ethics course within three months.

We concurred with the university assessment, but concluded that the PI plagia-
rized knowingly: plagiarizing to meet a deadline does not render the perpetrator
less aware of his actions. We recommended that NSF send a letter to the PI
informing him that NSF made a finding of research misconduct; require the PI
to certify for two years that proposals he submits to NSF contain no plagiarized,
falsified, or fabricated material; and direct the PI to complete a research ethics
course within one year. NSF’s decision is pending.

PI Plagiarizes Text in NSF Proposal

We concluded that a PI from a Louisiana university submitted an NSF proposal
that contained plagiarized text, some of which was taken from a funded NSF
proposal. The PI admitted that she had plagiarized, but she argued that, since
the proposal had been withdrawn and was not funded, there could be no
research misconduct. The university found that the PI committed plagiarism,
citing, among other reasons, that the PI had signed a university form prior to
submission of the proposal that clearly stated that the PI certifies the proposal


                                                                                       31

Investigations


                 is free of plagiarism. The university’s actions included: prohibiting her from
                 submitting proposals, papers for publication, or papers for presentations for
                 one year unless they were reviewed and approved by administrators; making
                 her ineligible for merit salary increase for one year; requiring her to take an
                 ethics class; barring her from serving on one student program for one year and
                 another for two years.

                 We agreed with the university’s conclusions and recommended that NSF:
                 make a finding of research misconduct; send the PI a letter of reprimand;
                 require her to certify for one year that proposals or reports she submits to NSF
                 do not contain plagiarized, fabricated, or falsified material; provide documenta-
                 tion that she completed the two-day ethics course; and bar the subject from
                 serving as a merit reviewer for one year. NSF’s decision is pending.

                 Actions by NSF Management on Previously Reported Research
                 Misconduct Investigations

                 NSF has taken administrative action to address our recommendations on
                 five research misconduct cases reported in our March and September 2009
                 reports. In each case, NSF made a finding of research misconduct and issued
                 a letter of reprimand. NSF also took additional significant actions in response
                 to our recommendations as summarized below.

                 •		 NSF debarred for five years a PI at an east coast university who extensively
                     plagiarized into two NSF proposals, and also barred the PI from serving as
                     a merit reviewer for five years.14

                 •		 NSF proposed debarring for three years a doctoral student at a Pennsylva-
                     nia university who demonstrated a pattern of purposeful data falsification.15
                     NSF also required certification of the retraction of the published work and
                     her completion of ethics training; for three years following the debarment
                     period required the submission of certifications and assurances; and
                     banned her from serving as a reviewer of NSF proposals.

                 •		 NSF’s Deputy Director debarred for two years a research professor who
                     fabricated and falsified data in his NSF proposal, and also required the
                     subject and his employer to provide certifications and assurances for
                     three years after debarment ends, prohibited the subject from serving as
                     a reviewer of NSF proposals for three years, and required the subject to
                     complete a course in ethics training.16 The subject appealed all actions,
                     which were upheld by the Director.




                 14 March 2009 Semiannual Report, pp. 45-46.
                 15 September 2009 Semiannual Report, pp. 21-23.
                 16 September 2009 Semiannual Report, p. 23.


           32

                                                             OIG Semiannual Report    March 2010


•		 NSF required certifications for one year from a doctoral student at a Nevada
    university who plagiarized in a proposal he submitted to NSF requesting
    support to complete his dissertation.17 NSF also required the student to
    send to OIG the materials he developed for the university-imposed presen-
    tation on research ethics; and required certification that he completed a
    research ethics course.

•		 NSF required certifications from a PI at a Wyoming university who
    plagiarized into three separate proposals he submitted to NSF.18 NSF also
    required the PI to send our office all materials developed for the university-
    imposed research ethics presentation, and required certification that he
    completed a course in research ethics.

Reviews to Improve NSF Processes

When we conduct investigations, we look for problems that could be avoided
prospectively if NSF modified its internal processes or external requirements.
During this reporting period we completed two reviews that arose from investi-
gations, resulting in recommendations involving possible NSF staff conflicts of
interests.

Using Electronic Means to Handle Conflict of Interests Recusals by
NSF Staff

NSF staff avoid conflicts of interests (COIs) by recusing themselves from
handling proposals and awards with which they have an actual or possible
appearance of a conflict because they have an affiliation or relationship with an
institution, person, or project. Traditionally, each NSF program division handled
COI recusals manually, with each staff member being responsible for informing
the division’s conflicts official about proposals/awards, individuals, and institu-
tions from which the staff member should be recused.

NSF’s electronic proposal system includes a conflict of interests module which
staff can use to declare and record any institutional, individual, or proposal
conflicts. We reviewed the use of this module by NSF’s divisions and con-
cluded that it has several advantages over manually checking for conflicts of
interests. Therefore, we recommended that NSF require staff to use the COI
module in the electronic proposal system. We also recommended that NSF
ensure that all relevant staff receive training in the use of the module and make
other technical improvements. NSF’s decision is pending.

Recommendations to Improve NSF’s Hiring Process

We received allegations that a temporary NSF employee, hired through the
Intergovernmental Personnel Act (IPA), inappropriately participated in the hiring
of a division director who would be directly involved in determining significant




17 September 2009 Semiannual Report, p. 23.
18 September 2009 Semiannual Report, p. 24.


                                                                                      33

Investigations


                 funding for the IPA’s home institution. Based on our review, we made two
                 recommendations to NSF to strengthen the integrity of its hiring process. Our
                 investigation into the alleged conflict of interests is ongoing.

                 The IPA had sought advice from NSF’s Designated Agency Ethics Official
                 (DAEO) on his involvement in an earlier hiring effort for a program position
                 related to his home institution, and the DAEO advised him not to participate.
                 When the hiring process began for the new director of the division that included
                 that same program—raising, in our view, the same conflicts issues—the IPA did
                 not directly seek new or clarifying advice from the DAEO for the new position.
                 Late in the selection process, concerns came to the DAEO’s attention and she
                 advised the IPA not to participate in the selection process. NSF’s Division of
                 Human Resource Management was not notified of the DAEO’s advice and
                 therefore did not recuse the IPA from his role as selecting official or other
                 aspects of the selection process.

                 Since many NSF supervisory program executives are IPAs, the issue that arose
                 could recur. In response to our recommendations, NSF concluded that the
                 new division director will handle any issues on which the IPA may be conflicted
                 without involvement of the IPA. NSF agreed to revise its Manual 14, “Personnel
                 Manual,” to explicitly require IPAs (including Assistant Directors (ADs) and
                 Division Directors) with selection authority to seek advice from the DAEO
                 regarding participation in the hiring process. HRM will consider implementing
                 mechanisms to ensure that hiring actions are conducted consistent with the
                 DAEO’s advice. In addition, the DAEO agreed to provide such guidance to ADs
                 in writing; this latter step is consistent with recent OGE guidance to DAEOs on
                 conflict of interests waivers.




           34

                               OIG Management Activities
OUTREACH

Outreach continues to be a valuable tool in our efforts to prevent
and detect fraud, waste, and abuse and to provide insight and
recommendations to NSF and its awardees. During the past six
months, we worked proactively with the National Science Board,
NSF management, major research institutions, colleges and
universities, national and international research organizations,
and others. For example, our office has briefed the Board on audit
issues including contract administration issues identified in the
financial statement audit, as well as issues disclosed through our
investigative work.

While continuing to encourage the research community to embrace
compliance-based practices and programs, we have broadened
our message to address current matters of importance to NSF and
to the community. Specifically, we incorporated information about
the Recovery Act, its whistleblower protections, and proactive OIG
activities relating to it, into outreach events. We also highlighted
NSF’s Responsible Conduct of Research requirements.

As a result of our extensive experience in investigating research
misconduct, our office receives many requests from universities
and others in the research community to provide training on pre-
venting, detecting and investigating research misconduct. During
the past six months, our staff has made a number of presentations
focused on research misconduct. For example, the Inspector
General gave the keynote address at the annual meeting of the
Biological Graduate Student Association at the University of Puerto
Rico, speaking on plagiarism and responsible research practices.
The Assistant Inspector for Investigations gave a presentation to
the Society of Research Administrators International (SRAI) on
NSF’s expectations for awardees’ implementation of Responsible
Conduct of Research requirements. OIG staff also gave presenta-
tions on conducting research misconduct investigations to SRAI’s
annual meeting, and to the SRAI North Carolina chapter.

In addition, the Assistant Inspector General for Investigations
participated in a panel discussion during the annual meeting of
the Committee on Science, Engineering, and Public Policy (a joint
entity of the National Academy of Science, the National Academy
of Engineering, and the Institute of Medicine) regarding revisions
of the Committee’s report on responsible science. OIG staff made
several presentations at area universities covering fraud detection
and prevention, research misconduct, and compliance-related             HIGHLIGHTS
                                                                        Outreach     35


                                                                       35
OIG Management


                 matters. Also, staff made a number of presentations to groups that were
                 involved in either applying for or administering NSF awards, performing sup-
                 ported research, or conducting university-level inquiries and investigations into
                 research misconduct allegations.

                 In addition to outreach activities to heighten awareness of research misconduct,
                 OIG staff participated in a number of efforts related to grant fraud. With the
                 NASA Deputy IG, the Inspector General is leading a working group comprised
                 of representatives of the Small Business Administration OIG, and the OIGs of
                 the eleven federal agencies that fund the Small Business Innovation Research
                 (SBIR) program to develop best practices to detect and prevent fraud in this
                 program. In 1994, as a result of problems we had noted in our investigations of
                 SBIR recipients, we made a number of recommendations to NSF that focused
                 on strengthening SBIR disclosures and certifications. As a result of those
                 recommendations, NSF requires proposers and awardees to make enhanced
                 disclosures and certifications at critical points throughout the lifecycle of each
                 SBIR award. This process helps prevent fraud in the first place and enhances
                 our ability to prosecute it when it does occur.

                 In addition to our work in the SBIR program, OIG staff are participating in the
                 National Procurement Fraud Working Group. Staff also provided grant fraud
                 training to a regional workshop of more than 300 federal auditors and investiga-
                 tors and hosted its sixth Grant Fraud Investigations Training Program for more
                 than 140 investigators, attorneys, and auditors from 36 federal agencies.

                 Our audit staff has continued to be involved in extensive outreach efforts
                 and to participate in several projects related to ARRA funds at the request
                 of the Recovery Accountability and Transparency Board. In addition, our
                 office provided ARRA training at the National Council of University Research
                 Administrators conference and discussed ARRA issues at a meeting of the
                 Council on Government Relations. We have also worked with OMB in efforts
                 to update A-133 audit procedures to include testing for compliance with ARRA
                 requirements, revising A-133 audits to reduce the potential for improper
                 payments, and updating OMB’s guidance for conducting quality assurance of
                 A-133 audits. These audits are an important tool for providing timely information
                 on awardees’ internal controls and expenditure of ARRA funds. Finally, we
                 continue to participate in the Single Audit Roundtable with other Offices of
                 Inspector General as well as state agencies, the American Institute of Certified
                 Public Accountants, and others.




           36

                                                                             OIG Semiannual Report         March 2010


Office of Audit Conducts Peer Review

Audit organizations that perform audits and attestation engagements in ac-
cordance with the Controller General’s Government Audits Standards (GAS)
must have external peer reviews every three years by independent reviewers.
During this reporting period the NSF OIG conducted a peer review of the
Special Inspector General for Iraq Reconstruction (SIGIR) Office of Audit for
the year ended July 31, 2009. Peer reviews focus on quality control, which
includes organizational structure and policies and procedures that help ensure
compliance with GAS. A copy of the NSF OIG peer review report is available
on the SIGIR website.19




19 http://www.sigir.mil/audits/PeerReview.aspx. Note: The NSF OIG’s last peer review, for the year ended
September 30, 2008, by the National Credit Administration Inspector General, was reported in the March
2009 Semiannual Report to Congress, p. 13, and is available on the NSF OIG website at:
http://www.nsf.gov/oig/2009AuditPeerReview.pdf.


                                                                                                           37

OIG Management




           38

                                                                       Statistical Data

                                    Audit Data

         Audit Reports Issued with Recommendations

                   for Better Use of Funds

                                                                          Dollar Value
 A.       For which no management decision has                             $3,053,497
          been made by the commencement of the
          reporting period
 B.       Recommendations that were issued during                                      $0
          the reporting period
 C.       Adjustments related to prior                                                 $0
          recommendations
 Subtotal of A+B+C                                                         $3,053,497
 D.       For which a management decision was
          made during the reporting period                                 $1,900,000
          i)    Dollar value of management decisions                                   $0
                that were consistent with OIG
                recommendations
          ii)   Dollar value of recommendations that                       $1,900,000
                were not agreed to by management1
 E.       For which no management decision had                              $1,153,497
          been made by the end of the reporting
          period
 For which no management decision was made                                  $1,153,497
 within 6 months of issuance




1 Although NSF did not agree with the finding of $1.9 million of funds put to better use in
OIG audit report No. 06-2011, additional funds were made available for grants as a result of
NSF’s implementing the report recommendations that NSF comply with OMB requirement for
calculating grantees’ indirect cost rates.

                                                                                               39

Statistical Data


                        Audit Reports Issued with Questioned Costs

                                                                    Number of             Questioned             Unsupported
                                                                     Reports                Costs                   Costs
  A.    For which no management decision has                              22              $62,384,713              $2,281,145
        been made by the commencement of
        the reporting period
  B.    That were issued during the reporting                             19               $1,228,520               $382,137
        period2
  C.    Adjustment related to prior
        recommendations
  Subtotal of A+B+C                                                                       $63,613,233             $2,663,282
  D.    For which a management decision was                                8                $843,499                $109,623
        made during the reporting period
        i) dollar value of disallowed costs                              N/A                $200,742                    N/A
        ii) dollar value of costs not disallowed                         N/A                $642,757                    N/A
  E.    For which no management decision had                              33              $62,769,734             $2,553,659
        been made by the end of the reporting
        period
  For which no management decision was                                    15              $61,891,022              $2,171,522
  made within 6 months of issuance




2 Of the 19 audit reports with questioned costs issued during this reporting period, 15 were Single Audit (A-133) audit reports, with
a total of $1,113,470 questioned costs. Of those 15, seven A-133 reports found a total of $382,137 of unsupported costs.


             40
                                                         OIG Semiannual Report   March 2010


                                Audit Reports Involving
                                Cost-Sharing Shortfalls

                                        Number of      Cost-       At Risk of    Actual Cost
                                         Reports      Sharing     Cost Sharing     Sharing
                                                     Promised       Shortfall     Shortfalls
                                                                   (Ongoing      (Completed
                                                                    Project)       Project)

A.   Reports with monetary findings        2        $11,493,051    $136,263       $510,718
     for which no management
     decision has been made by
     the beginning of the reporting
     period:
B.   Reports with monetary findings        0            $0             $0              $0
     that were issued during the
     reporting period:
C.   Adjustments related to prior          0            $0             $0              $0
     recommendations
Total of reports with cost sharing                  $11,493,051    $136,263       $510,718
findings (A+B+C)
D.   For which a management                0            $0             $0              $0
     decision was made during the
     reporting period:
     1. Dollar value of cost-sharing       0            $0             $0              $0
        shortfall that grantee agreed
        to provide
     2. Dollar value of cost-sharing       0            $0             $0              $0
        shortfall that management
        waived
E.   Reports with monetary findings        2        $11,493,051    $136,263       $510,718
     for which no management
     decision has been made by the
     end of the reporting period




                                                                                 41

Statistical Data


                            Status of Recommendations that
                      Involve Internal NSF Management Operations

  Open Recommendations (as of 09/30/2009)
    Recommendations Open at the Beginning of the Reporting Period                                             49
    New Recommendations Made During Reporting Period                                                          34
    Total Recommendations to be Addressed                                                                     83
  Management Resolution of Recommendations3
    Awaiting Resolution                                                                                       24
    Resolved Consistent With OIG Recommendations                                                              59
  Management Decision That No Action is Required                                                               0
  Final Action on OIG Recommendations4                                                                         0
    Final Action Completed                                                                                    31
  Recommendations Open at End of Period                                                                       52




                                Aging of Open Recommendations


  Awaiting Management Resolution:
      0 through 6 months                                                                                      21
      7 through 12 months                                                                                      0
      More than 12 months                                                                                      3
  Awaiting Final Action After Resolution
      0 through 6 months                                                                                      13
      7 through 12 months                                                                                      0
      More than 12 months                                                                                     15




3 “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple-
mented in response to the audit recommendations.
4 “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.


             42
                                                            OIG Semiannual Report   March 2010


                          NSF and CPA Performed Reviews

Report                     Subject                  Questioned Unsupported     Better      Cost
Number                                                Costs       Costs        Use of     Sharing
                                                                               Funds      At-Risk
10-1-001   SUNY at Stony Brook Effort Reporting        $23,656            $0        $0         $0
10-1-002   University of Wisconsin-Madison Effort       $2,941            $0        $0         $0
           Reporting
10-1-003   University of Nevada-Reno Effort            $54,154            $0        $0         $0
           Reporting
10-1-004   ANS Performance Internal Controls               $0             $0        $0         $0
           Academy of Natural Sciences
10-1-005   Washington University in St. Louis              $0             $0        $0         $0
           Effort Reporting
10-1-006   University of Missouri-Columbia                 $0             $0        $0         $0
10-1-007   NEES Network for Earthquake                     $0             $0        $0         $0
           Engineering Simulation
10-1-008   University of Delaware Effort               $34,299            $0        $0         $0
           Reporting
10-1-009   Follow up California Institute of               $0             $0        $0         $0
           Technology Effort Reporting
10-2-001   ARRA – Data Quality                             $0             $0        $0         $0
10-2-002   NSF’s FY2009 Financial Statement                $0             $0        $0         $0
           Audit
10-2-003   NSF FY2009 Special Purpose                      $0             $0        $0         $0
           Financial Statement
10-2-004   FISMA 2009 Independent Evaluation               $0             $0        $0         $0
           Report
10-2-005   FY2009 FISMA Independent                        $0             $0        $0         $0
           Evaluation Summary
10-2-006   Audit Resolution                                $0             $0        $0         $0
10-2-007   NSF’s FY2009 Management Letter                  $0             $0        $0         $0
10-2-008   Government in the Sunshine Act                  $0             $0        $0         $0
10-2-009   Workforce Management – Rotating                 $0             $0        $0         $0
           Director Model
10-6-001   Alert Memo NSF Contract                         $0             $0        $0         $0
           Administration Issue
10-6-002 Alert Memo COL (FKA JOI) NSF                      $0             $0        $0         $0
         Administration of CAS at COL
10-6-003 SIGIR Peer Review                                 $0             $0        $0         $0
            Total:                                    $115,050            $0        $0         $0




                                                                                    43

Statistical Data


                                       NSF-Cognizant Reports

   Report                             Subject                        Questioned Unsupported    Cost
   Number                                                              Costs       Costs      Sharing
                                                                                              At-Risk
  10-4-001         9-08 Forth Worth Museum of Science &                     $0           $0       $0
                   History – TX
  10-4-002         9-08 Northern California Public Broadcasting             $0           $0       $0
  10-4-003         8-08 Association of American                             $0           $0       $0
                   Geographers – DC
  10-4-004         12-08 Carnegie Institute – PA                        $24,000          $0       $0
  10-4-005         6-08 CORD, Inc. – TX                                     $0           $0       $0
  10-4-006         12-08 International Computer Science                     $0           $0       $0
                   Institute – CA
  10-4-007         9-08 Merck Institute for Science Education – NJ          $0           $0       $0
  10-4-008         9-08 NEES Consortium, Inc. – CA                          $0           $0       $0
  10-4-009         9-08 TMT Observatory Corporation – CA                    $0           $0       $0
  10-4-010         12-08 TERC Technical Education Research                  $0           $0       $0
                   Centers, Inc. – MA
  10-4-011         6-08 SoundVision Productions – CA                        $0           $0       $0
  10-4-012         8-08 WGBH Educational Foundation – MA                  $791         $776       $0
  10-4-013         12-08 BIOS Bermuda Institute for Ocean                   $0           $0       $0
                   Sciences – NY
  10-4-014         9-08 Kentucky Science and Technology                     $0           $0       $0
                   Corporation
  10-4-015         12-08 Monterey Bay Aquarium Research                     $0           $0       $0
                   Institute – CA
  10-4-016         9-08 AURA Association of Universities for                $0           $0       $0
                   Research in Astronomy, Inc. – DC
  10-4-017         9-08 IMI IODP Management International,                  $0           $0       $0
                   Inc. – DC
  10-4-018         12-08 AIM American Institute of                          $0           $0       $0
                   Mathematics – CA
  10-4-019         12-08 Mathematical Association of                        $0           $0       $0
                   America – DC
  10-4-020         9-08 ARCUS Arctic Research Consortium of the             $0           $0       $0
                   U.S. – AK
  10-4-021         9-08 Chabot Space and Science Center – CA                $0           $0       $0
  10-4-022         9-08 Fermi Research Alliance, L.L.C. – IL                $0           $0       $0
  10-4-023         9-08 NEON National Ecological Observatory                $0           $0       $0
                   Network, Inc. – CO
  10-4-024         12-08 Academy of Natural Sciences of                     $0           $0       $0
                   Philadelphia – PA
  10-4-025         12-08 Field Museum of Natural History – IL               $0           $0       $0
  10-4-026         12-08 Denver Museum of Nature and                        $0           $0       $0
                   Science – CO


             44

                                                              OIG Semiannual Report   March 2010


10-4-027   12-08 American Association of Community                $41,400             $0       $0
           Colleges – DC
10-4-028   12-08 SCOR Scientific Committee on Ocean                    $0             $0       $0
           Research – DE
10-4-029   9-08 AUI Associated Universities, Inc. – DC                 $0             $0       $0
10-4-030   12-08 Astrophysical Research Consortium –WA                 $0             $0       $0
10-4-031   6-08 Bigelow Laboratory for Ocean                           $0             $0       $0
           Sciences – ME
10-4-032   12-06 American Institute of Biological Sciences,            $0             $0       $0
           Inc. – DC
10-4-033   12-08 American Physical Society – MD                        $0             $0       $0
10-4-034   12-08 Hopa Mountain Foundation – MT                         $0             $0       $0
10-4-035   12-08 Santa Fe Institute – NM                               $0             $0       $0
10-4-036   12-08 Samuel Roberts Noble Foundation,                      $0             $0       $0
           Inc. – OK
10-4-037   12-08 UCAID University Corporation for                      $0             $0       $0
           Advancement of Internet Development – MI
10-4-038   12-08 COL Consortium for Ocean                        $266,525             $0       $0
           Leadership – DC
10-4-039   6-07 REVISED Town of Hudson – MA                            $0             $0       $0
10-4-040   12-08 The Franklin Institute – PA                           $0             $0       $0
10-4-041   12-08 American Association of Physics                       $0             $0       $0
           Teachers – MD
10-4-042   12-08 Rocky Mountain Biological                             $0             $0       $0
           Laboratory – CO
10-4-043   12-08 American Geophysical Union – DC                       $0             $0       $0
10-4-044   12-08 Biological Sciences Curriculum Study,                 $0             $0       $0
           Inc. – CO
10-4-045   12-08 American Institute of Biological Sciences,      $267,638       $267,638       $0
           Inc. – DC
10-4-046   9-08 REJECTED EBIRE East Bay Institute for                  $0             $0       $0
           Research and Education – CA
10-4-047   12-08 AAAS American Association for the                     $0             $0       $0
           Advancement of Science – DC
10-4-048   12-08 Boyce Thompson Institute for Plant                    $0             $0       $0
           Research, Inc. – NY
10-4-049   12-08 REJECTED Center for Severe Weather                    $0             $0       $0
           Research – CO
10-4-050   12-08 Donald Danforth Plant Science                         $0             $0       $0
           Center – MO
10-4-051   12-08 OPeNDAP Open Source Project for Data                  $0             $0       $0
           Access Protocol – RI
10-4-052   12-08 Puget Sound Foundation for Teaching                   $0             $0       $0
           Learning and Technology – WA
10-4-053   9-08 The Algebra Project, Inc. – MA                         $0             $0       $0
10-4-054   12-08 The Shodor Education Foundation – NC                  $0             $0       $0


                                                                                      45

Statistical Data


  10-4-055         12-08 Triangle Coalition for Science and           $0    $0   $0
                   Technology Education – VA
  10-4-056         12-08 UNAVCO, Inc. – CO                            $0    $0   $0
  10-4-057         3-09 Association of Science-Technology             $0    $0   $0
                   Centers Incorporated – DC
  10-4-058         2-08 REJECTED Astronomical Society of the          $0    $0   $0
                   Pacific – CA
  10-4-059         12-08 CUAHSI Consortium of Universities for        $0    $0   $0
                   the Advancement of Hydrologic Sciences – DC
  10-4-060         6-09 REJECTED IUP Research Institute – PA          $0    $0   $0
  10-4061          5-09 National Science Teachers                     $0    $0   $0
                   Association – VA
  10-4-062         12-08 Space Science Institute – CO                 $0    $0   $0
  10-4-063         12-06 World Technology Evaluation Center,          $0    $0   $0
                   Inc. – MD
  10-4-064         12-08 Woods Hole Oceanographic                  $1,120   $0   $0
                   Institute – MA
  10-4-065         12-08 Institute for Broadening                     $0    $0   $0
                   Participation – ME
  10-4-066         12-08 Association for Institutional                $0    $0   $0
                   Research – FL
  10-4-067         5-09 Oregon Museum of Science and Industry         $0    $0   $0
  10-4-068         6-09 Shepherd University Research                  $0    $0   $0
                   Corporation – WV
  10-4-069         6-08 Liberty Science Center – NJ                   $0    $0   $0
  10-4-070         6-09 Viewpoints Research Institute, Inc.–- CA      $0    $0   $0
  10-4-071         6-09 Exploratorium – CA                            $0    $0   $0
  10-4-072         6-09 California Science Center Foundation          $0    $0   $0
  10-4-073         12-08 Anchorage Museum Association – AK            $0    $0   $0
  10-4-074         6-09 Southern Oregon Public Television, Inc.       $0    $0   $0
  10-4-075         6-09 William Marsh Rice University – TX            $0    $0   $0
  10-4-076         9-08 REVISED EBIRE East Bay Institute for          $0    $0   $0
                   Research and Education – CA
  10-4-077         9-09 ARCUS Arctic Research Consortium of the       $0    $0   $0
                   U.S.–- AK
  10-4-078         6-09 Southwest Center for Educational              $0    $0   $0
                   Excellence – MO
  10-4-079         6-09 Bigelow Laboratory for Ocean                  $0    $0   $0
                   Sciences – ME
  10-4-080         9-08 Young People’s Project, Inc. – MA             $0    $0   $0
  10-4-081         6-09 CRA Computing Research Association,           $0    $0   $0
                   Inc. – DC
  10-4-083         6-09 Cary Institute of Ecosystem Studies,          $0    $0   $0
                   Inc. – NY
  10-4-084         8-09 Twin Cities Public Television – MN            $0    $0   $0
  10-4-085         6-09 Science Museum of Minnesota                   $0    $0   $0


             46

                                                                OIG Semiannual Report         March 2010


10-4-087   6-09 New York Hall of Science                                    $0                $0       $0
10-4-088   6-09 Louisiana Museum Foundation                                 $0                $0       $0
10-4-089   6-09 National Alliance for Partnerships in Equity                $0                $0       $0
           Education Foundation – PA
10-4-090   6-09 Pacific Science Center Foundation – WA                      $0                $0       $0
10-4-091   6-09 The Institute for Global Environmental                      $0                $0       $0
           Strategies – VA
10-4-092   7-09 MSRI Mathematical Sciences Research                         $0                $0       $0
           Institute – CA
10-4-093   6-09 University Enterprises, Inc. – CA                           $0                $0       $0
10-4-094   6-09 Keck Graduate Institute of Applied Life                 $11,641               $0       $0
           Sciences – CA
10-4-095   6-09 Public Radio International, Inc. – MN                       $0                $0       $0
10-4-096   6-09 Oregon Public Broadcasting                                  $0                $0       $0
10-4-097   6-09 Maine Mathematics and Science Alliance                      $0                $0       $0
10-4-098   6-09 Council for Adult and Experiential                          $0                $0       $0
           Learning – IL
10-4-099   12-08 Stroud Water Research Center, Inc. – PA                    $0                $0       $0
10-4-100   8-09 WGBH Education Foundation – MA                          $1,881                $0       $0
10-4-101   6-09 IRIS Incorporated Research Institutions for                 $0                $0       $0
           Seismology – DC
10-4-102   6-09 Institute for Advanced Study – NJ                           $0                $0       $0
10-4-103   9-09 The Algebra Project, Inc. – MA                              $0                $0       $0
10-4-104   6-09 Stark County Educational Service                            $0                $0       $0
           Center – OH
           Total:                                                  $614,996            $268,414        $0




                                   Other Federal Audits


 Report                    Subject                      Questioned        Unsupported        Cost Sharing
 Number                                                   Costs              Costs             At-Risk
10-5-005   6-08 Northeastern University – MA                   $6,125               $6,125             $0
10-5-013   6-08 Seattle University – WA                   $349,808                     $0              $0
10-5-015   9-08 Oglala Lakota College – SD                     $4,104               $4,104             $0
10-5-016   6-08 State of Arizona                           $71,858                 46,045              $0
10-5-044   9-08 American Indian Higher                         $9,130                  $0              $0
           Education Consortium – VA
10-5-055   9-08 Fort Berthold Community                        $1,356               $1,356             $0
           College – ND
10-5-060   6-09 California State L.A. University           $56,093                $56,093              $0
           Auxiliary Services, Inc.
           Total:                                         $498,474                $113,723             $0



                                                                                              47

Statistical Data


                                  Audit Reports With Outstanding 

                                      Management Decisions

This section identifies audit reports involving questioned costs, funds put to better use, and cost
sharing at risk where management had not made a final decision on the corrective action neces-
sary for report resolution within six months of the report’s issue date. At the end of the reporting
period there were fifteen reports remaining that met this condition. The status of recommenda-
tions that involve internal NSF management is described on page 42.

   Report                      Subject                   Questioned        Unsupported         Better Use       Cost Shar-
   Number                                                  Costs              Costs             of Funds        ing At-Risk
  05-1-005         RPSC Costs Claimed FY2000            $33,425,115*       $0                 $0               $0
                   to 2002
  07-1-017         RPSC 2003/2204 Raytheon              $22,112,521*       $0                 $0               $0
                   Polar Services Company
  07-1-003         Triumph Tech, Inc.                   $80,740            $1,192             $0               $0
  07-1-015         Supplemental schedule to             $560,376           $0                 $0               $0
                   #06-1-023 RPSC
  07-1-019         Abt Associates                       $22,716            $0                 $0               $0
  09-1-007         CRDF U.S. Civilian Research          $198,926           $0                 $1,153,497       $0
                   & Development Foundation
  09-1-010         Carnegie Institution of              $25,718            $25,718            $0               $0
                   Washington
  09-1-011         Wisconsin Ice Core Drilling          $2,475,308         $27,308            $0               $0
                   Services
  09-1-014         University of Michigan               $1,604,713         $1,418,889                          $136,263
  09-4-088         12-07 American Association           $12,734            $0                 $0               $0
                   of Community Colleges – DC
  09-5-048         8-07 College of the                  $110,629           $0                 $0               $0
                   Mainland – TX **
  09-5-052         6-07 Howard University – DC          $1,125,491         $662,940           $0               $0
  09-5-159         6-08 University of Richmond          $35,400            $35,400            $0               $0
                   and Its Affiliates – VA
  09-5-164         6-08 Ohio State University           $100,560           $0                 $0               $0
  09-5-176         9-07 Fort Berthold Community $75                        $75                $0               $0
                   College – ND
                   Total:                               $61,891,022        $2,17,522          $1,153,497       $136,263

* Audit report Nos.05-1-005 and 07-1-017 have been partially resolved. For Report No. 05-1-005, $12,490,377 has been resolved; 

for Report No. 07-1-017, $8,802,474 has been resolved.
	
** This report is under OIG review.
	




             48

                                                                                 OIG Semiannual Report             March 2010


                                       INVESTIGATIONS DATA 

                                  (October 1, 2009 – March 31, 2010)
	

Civil/Criminal Investigative Activities

Referrals to Prosecutors                                                         4
Criminal Convictions/Pleas                                                       1
Civil Settlements                                                                1
Indictments/Information                                                          0
Investigative Recoveries                                                         $1,408,317.97

Administrative Investigative Activities

Referrals to NSF Management for Action                                           21
Research Misconduct Findings                                                     6
Debarments                                                                       6
Administrative Actions                                                           47
Certifications and Assurances Received5                                          23



                                       Investigative Case Statistics

                                              Preliminary                 Civil/Criminal               Administrative

Active at Beginning of Period                      46                            87                             72
Opened                                             125                           26                             36
Closed                                             127                           28                             32
Active at End of Period                            44                            84                             76



               Freedom of Information Act and Privacy Act Requests

Our office responds to requests for information contained in our files under the freedom of
Information Act (“FOIA,” 5 U.S.C. paragraph 552) and the Privacy Act (5 U.S.C. paragraph
552a). During this reporting period:

Requests Received                                  50
Requests Processed                                 51
Appeals Received                                   0

Response time ranged between 3 days and 18 days, with the median around 13 days and the
average around 13 days.




5 NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, the
subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly
submitted NSF proposal does not contain anything that violates NSF regulations.


                                                                                                                   49

Statistical Data




            50

                                                            Appendix
The 2009 OIG Performance Report is posted on our website at:
http://www.nsf.gov/oig/PerfPlan0910.pdf.

The Report describes the specific strategies and actions OIG has
undertaken over the past year in pursuit of the three major goals set
forth in our Annual Performance Plan. The goals are: 1) Promote
NSF effectiveness and Efficiency; 2) Safeguard the integrity of
NSF programs and resources; and 3) Utilize OIG resources ef-
fectively and efficiently.




                                                                        51
Appendix




     52

                                                  OIG Semiannual Report   March 2010


                         Acronyms
AD       NSF Assistant Director
AIG      Associate Inspector General
ARRA     American Recovery and Reinvestment
CAREER   Faculty Early Career Development Program
CAS      Cost Accounting Standards
CBA      Collective Bargaining Agreement
CIGIE    Council of Inspectors General on Integrity and Efficiency
CISE     Computer and Information Science and Engineering Directorate
COI      Conflict of Interest
COV      Committee of Visitors
DACS     Division of Acquisition and Cost Support
DCAA     Defense Contract Audit Agency
DD       Deputy Director
DGA      Division of Grants and Agreements
DIAS     Division of Institution and Award Support
DoD      Department of Defense
DoE      Department of Energy
DoJ      Department of Justice
ECIE     Executive Council of Integrity and Efficiency
EPSCoR   Experimental Program to Stimulate Competitive Research
FFRDC    Federally Funded Research and Development Centers
FISMA    Federal Information Security Management Act
GAO      Government Accountability Office
GAS      Government Auditing Standards
GPRA     Government Performance and Results Act
HHS      Department of Health and Human Services
IG       Inspector General
MIRWG    Misconduct in Research Working Group
MREFC    Major Research Equipment and Facilities Construction
NIH      National Institute of Health
NSB      National Science Board
NSF      National Science Foundation
OEOP     Office of Equal Opportunity Programs
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPP      Office of Polar Programs
OPM      Office of Personnel Management
PCIE     President’s Council on Integrity and Efficiency
PI       Principal Investigator
PFCRA    Program Fraud Civil Remedies Act
SBIR     Small Business Innovation Research
STC      Science and Technology Centers
USAP     United States Antarctic Program




                                                                          53

About The National Science Foundation...                                                           About the Cover...

                                                                                                   Collage of photos from the NSF multimedia gallery prepared using image manipulation
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   techniques similar to those involved in allegations of data fabrication and falsification.
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets         Cover design by Scott J. Monroe.
agency policies and provides oversight of its activities.
                                                                                                   Photo credits for individual source images:

NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and      Main image:
education projects in science and engineering, and is responsible for the establishment of
                                                                                                   The Blue Moon butterfly, by Sylvain Charlat.
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and     Inset photos:
supporting the development and use of computers and other scientific methods and
                                                                                                   The Coast Guard cutter Healy, by Henry Dick.
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.                                            The world’s first silicon spin-transport devices fabricated and measured in Ian Appelbaum’s lab
                                                                                                   at the University of Delaware (UD). More than 25 individual silicon spin-transport devices are
And The Office of the Inspector General...                                                         represented, one within each tiny wire grid, on this ceramic chip holder. By Jon Cox.

                                                                                                   Past and Future Tech (wind turbines), by University Corporation for Atmospheric Research.
NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within       AUV Sentry, by Chris German.
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
                                                                                                   Jaemi the Humanoid Robot, by Lisa-Joy Zgorski.
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the             Sifaka Lemur in Madagascar, by Walter Jetz.
National Science Board and Congress, the Office is organizationally independent from the
agency.
